       OFFICE OF INSPECTOR GENERAL
       U.S. Department of Transportation




Semiannual Report to Congress

  October 1, 2004 – March 31, 2005
              S emiannual 

                R eport to 

                C ongress

           October 1, 2004 – March 31, 2005




Office of Inspector General ■ U.S. Department of Transportation
                             contents

From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page v
Work Planned and in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 1
     Aviation and Special Program Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 1
     Financial and Information Technology Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 4
     Surface and Maritime Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 7
     Competition and Economic Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 9
Activities
     October . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 11
     November . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 12
     December . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 21
     Flight Cancellations and Delays Disrupt 2004 Holiday Travel Period . . . . . . . . . . . . . . . . . . . . . . . . .Page 23
     January . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 25
     February . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 28
     March . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .page 31
     Sharpening the Focus on Contract/Grant Fraud . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .page 34
Other Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 37
Charts & Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 41
     Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 41
     Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 42
     Profile of All Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 43
     Investigations Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 43
     Application of Investigative Project Hours by Operating Administration . . . . . . . . . . . . . . . . . . . . . .Page 44
     Application of Investigative Project Hours by Priority Area                              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 44

     Completed OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 45
     OIG Reports with Recommendations That Questioned Costs                                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 45
     OIG Reports with Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . .Page 46
     OIG Reports Recommending Changes for Safety, Economy, or Efficiency                                           . . . . . . . . . . . . . . . . . . . .Page 46
     Management Decisions Regarding OIG Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 47
     Office of Inspector General Published Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 47
     Status of Unresolved Recommendations Over Six Months Old . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 50
     Application of Audit Project Hours by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 51
Mission, Organization, & Contacts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 53
Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Page 56



                                                                                                                                                                     iii
    from the 

inspector general


W
               e are pleased to present the Department of Transportation Office
               of Inspector General's Semiannual Report to Congress for the six
               months ending March 31, 2005. We thank Secretary Mineta,
Deputy Secretary Cino, our modal administrators, and members and staff of
Congress for their responsiveness to our recommendations to strengthen safety,
improve program delivery, and maximize efficiency.
         During this period, we issued our annual report of the top management
challenges facing DOT. The Department has been responsive to our manage-
ment challenges report and continues to develop and carry out initiatives to
address those challenges. Many of the challenges identified do not materially
change from year to year but as we begin work on our FY 2006 report we have
identified several new challenge areas requiring attention. These include: FAA's
need to improve the cost efficiency of support services contracts, a multibillion-
dollar cost item; railroad safety, especially at highway grade crossings; and the
challenges facing DOT in its impending move to a new Headquarter's building.
         We will continue placing a high priority on other key areas, among
them: FAA's efforts to control costs, build capital projects within budget,
address trust fund revenue shortfalls, and alleviate air traffic congestion and
delays; Amtrak's reauthorization; large transit and highway infrastructure proj-
ect oversight; and preventing and detecting fraud in DOT contracts, grants, and
safety programs.
         Over the last six months, we have issued 55 audit reports and 188 rec-
ommendations, and our investigations resulted in 103 convictions. Our office
has had a financial impact on the Department totaling more than $285 million
in fines, restitutions, civil penalties, recoveries, and financial recommendations.
A summary of highlights from audits and investigations presented during this
report period can be found inside.




                                                                                      v
vi   Semiannual Report to Congress
         work planned

        and in progress


D
          uring this reporting period, the Office of Inspector General will con-
          tinue to focus on the Department’s key strategic goals to improve
          safety, capacity, and efficiency. We will review the cost and schedules
of major acquisitions programs in FAA; safety oversight of the changing avia-
tion industry; and human resources issues, such as staffing in FHWA and FAA.
We will ensure thorough financial reporting and accounting practices through-
out the Department and review information system acquisitions and security.
We will continue to monitor the progress of major highway and transit projects,
assess programs to improve motor carrier safety, and evaluate activities to
improve public transit and passenger rail security.
   OIG has developed the following work plan for the period of April 1, 2005,
through September 30, 2005.

              AVIATION AND SPECIAL PROGRAM AUDITS
■ FAA Staffing and Training for Flight Standards Inspectors
   Determine whether: (1) FAA and OST have effectively implemented proce-
dures to heighten surveillance of new entrant and low-cost air carriers during
periods of rapid growth and (2) FAA’s risk-based surveillance system is used
effectively to target identified risk areas and to aid FAA in allocation of inspec-
tor resources.

■ National Airspace Redesign
   Determine (1) if FAA has an effective process to control costs, mitigate risks,
and coordinate local, regional, and Headquarters efforts and (2) whether
opportunities exist for FAA to make airspace redesign efforts more cost effec-
tive.

■ En Route Automation Modernization (ERAM) Program
    Evaluate FAA’s ERAM program to: (1) determine whether FAA has a real-
istic plan to provide a new en route automation system on time and within
budget, (2) identify the key program risks that could affect FAA’s ability to
meet cost and schedule projections, and (3) determine whether FAA has ade-
quately addressed computer security in the ERAM system design.




                                                                            work planned and in progress   1
                                    ■ Air Carriers Use of Non-Certificated Repair Facilities
                                        Determine (1) how FAA identifies and oversees work performed at non-cer-
                                    tificated repair facilities, (2) how FAA requirements for non-certificated facili-
                                    ties differ from those for certificated repair stations, and (3) evaluate the quan-
                                    tity and type of work air carriers outsource to non-certificated repair facilities.

                                    ■ Advanced Technology and Oceanic Procedures II
                                       Compare FAA’s experience in acquiring an oceanic system to the experi-
                                    ences of other major oceanic air traffic control service providers. Review the
                                    cost, schedule, and performance specifications and the operating environment
                                    (i.e., complexity and volume of airspace) that the system was designed to
                                    accommodate.

                                    ■ Validation of the Standard Terminal Automation Replacement System (STARS)
                                       Phase I Program Costs
                                       Review and validate the life cycle cost studies and other relevant analyses pro-
                                    vided to FAA’s Joint Resources Council to justify and rebaseline Phase I of the
                                    STARS program.

                                    ■ Safety Oversight of an Air Carrier Industry in Transition
                                       Determine whether: (1) action taken by FAA to monitor financially dis-
                                    tressed air carriers is effective, (2) the Air Transportation System and the
                                    Safety Performance Analysis System have been used effectively to monitor
                                    financially distressed carriers by providing the data and tools inspectors need
                                    to conduct their work, (3) FAA has effectively implemented procedures to
                                    heighten surveillance of low-cost air carriers during periods of growth or
                                    change, and (4) FAA’s risk-based surveillance system is used effectively to tar-
                                    get identified risk areas, and to aid FAA in the allocation of inspector
                                    resources for low-cost air carriers.

                                    ■ FAA’s Initiatives To Address Controller Staffing
                                       (1) Evaluate the current process for determining staffing levels at the FAA
                                    facilities and plans to adjust the process, (2) determine FAA’s progress in
                                    implementing a labor distribution system, and (3) evaluate FAA staffing plans
                                    to correct facility staffing imbalances that Congress mandated.

                                    ■ FAA Major Acquisitions
                                       Update the costs and schedule of major acquisitions and identify key issues
                                    affecting implementation of FAA’s efforts to modernize the National Airspace
                                    System.




2   Semiannual Report to Congress
■ Oversight of Aircraft Manufacturers’ Quality Assurance System for Suppliers
   Evaluate FAA’s oversight of aircraft manufacturers’ quality assurance system
for domestic and foreign suppliers.

■ Review of Chicago O’Hare Modernization Plan
  Investigate FAA’s process for reviewing and approving the city of Chicago’s
proposed O’Hare Modernization Plan.

■ Physical Security of FAA Facilities
   Assess FAA’s Internal Security Program and determine whether FAA is
ensuring: (1) the integrity of those working and supporting the National
Airspace System; and (2) the adequate protection of FAA’s property, and FAA
personnel, contractors, and visitors as well as operations against criminal and
terrorist acts.

■ Implementation of Pipeline and Hazardous Materials (HAZMAT)
   Safety Mandates and Recommendation
   As required by H.R. 5163, the Norman Y. Mineta Research and
Special Programs Improvement Act, identify and report: (1) a list of
statutory mandates regarding pipeline and HAZMAT safety that have
not been implemented, and (2) NTSB and OIG recommendations
that remain open.

■ Disposal and Development of Properties Acquired Under Airport Noise
    Compatibility Programs
   Assess policies, procedures, and practices of airport sponsors for: (1) iden-
tifying land that is no longer needed for noise compatibility purposes; (2) dis-
posing of this land through sales, leases, or other means such as exchanges;
(3) ensuring the land is only used for purposes compatible with noise levels
associated with airport operations; and (4) ensuring that proceeds from land
dispositions are used for other noise compatibility projects or returned to the
Secretary for deposit in the Airport and Airway Trust Fund.

■ Security of Public Transit and Passenger Rail Systems
   Assess (1) DOT’s roles and responsibilities with respect to security of the
Nation’s public transit and passenger rail systems; (2) DOT’s efforts to collab-
orate and coordinate with the Department of Homeland Security on public
transit and passenger rail security rulemaking, oversight, and enforcement; and
(3) the extent and effectiveness of DOT funding for securing the public transit
and passenger rail system.




                                                                         work planned and in progress   3
                                    ■ FAA Certification Procedures for Foreign Manufactured Aircraft
                                      Evaluate FAA’s process for reviewing and approving major systems/compo-
                                    nents of foreign manufactured aircraft.

                                    ■ Air Carriers’ Outsourcing of Aircraft Maintenance
                                      Determine (1) the type and amount of maintenance being performed by
                                    outside repair stations, (2) the effect of air carriers’ downsizing of in-house per-
                                    sonnel, and (3) how FAA ensures air carriers are effectively monitoring the work
                                    performed by repair stations.

                                           FINANCIAL AND INFORMATION TECHNOLOGY AUDITS
                                    ■ Use of Contract Audit Services, DOT Operating Administrations
                                      Determine whether DOT and its Operating Administrations are obtaining
                                    contract audit services as necessary and in accordance with policies, procedures,
                                    and acquisition regulations.

                                    ■ Review of Contractor Overhead and Compensation Under Grants
                                       Review the effectiveness and implementation of audit provisions in Section
                                    307 of the National Highway System Designation Act addressing audits of con-
                                    tracts awarded by states to engineering and design firms. Procedures include
                                    testing the allowability of compensation and other high overhead cost elements
                                    billed by these firms.

                                    ■ 2004 Status Assessments of Cost Accounting System and Practices, FAA
                                       Provide our annual status assessment on FAA’s progress in implementing its
                                    cost accounting system through calendar year 2004 as required by AIR-21.
                                    This is our fifth and final required annual assessment. AIR-21 requires an
                                    assessment of eight specific areas covering FAA’s methods for calculating and
                                    assigning costs to specific users and whether those methods are appropriate, rea-
                                    sonable, and understandable.

                                    ■ Security and Controls Over the Remote Maintenance Monitoring System
                                       Determine whether maintenance processing systems are adequately secured
                                    to ensure the integrity and availability of field equipment supporting air traffic
                                    control operations and services.

                                    ■ Oversight of Contractor Performance of SAS-70 Review of DOT Delphi
                                       Financial System
                                      Provide oversight of the work performed by an independent contractor in
                                    conducting a SAS-70 review of the DOT Delphi Financial Management
                                    System.



4   Semiannual Report to Congress
■ FRA Network Infrastructure Security
  Review security over Virtual Private Network, wireless, and third-party con-
nections to the DOT network.

■ Financial Policies and Procedures at the National Crash Analysis Center
   Determine whether George Washington University’s corrective actions and
financial policies are adequate and sufficient enough to eliminate the overbilling
to FHWA and Federal agencies, which resulted from recent instances of finan-
cial misconduct and conflicts of interest at the National Crash Analysis Center.

■ FY 2005 Audit of FHWA Inactive Obligations
   Determine whether FHWA has implemented prior recommendations
regarding inactive obligations. Identify funds associated with unneeded proj-
ects that can be put to use on other projects.

■ Review of Cost Allocation for Midway Island Operations
   In compliance with an FY 2005 Consolidated Appropriations Act require-
ment to establish an equitable formula to allocate the costs of operating the
Midway Island airfield, identify: (1) costs of operating the airfield, (2) an equi-
table method to allocate costs among users, and (3) opportunities to reduce
operating costs.

■ Use of Government Purchase Cards at NTSB
   Ensure that internal controls over the purchase cards are adequate to provide
safeguards against fraud, waste, and abuse and that purchases using
Government purchase cards are reasonable, valid, and received.

■ FY 2005 Audit of NTSB Financial Statements
   Ensure that the Independent Public Accounting firm audits the NTSB FY 2005
Financial Statements in accordance with U.S. Generally Accepted Government
Auditing Standards, the Government auditing standards issued by the
Comptroller General of the United States, Office of Management and Budget
(OMB) guidance, and the Accountability of Tax Dollars Act of 2002.

■ Review of Consolidation of DOT Accounting Functions
  Determine the extent to which DOT would achieve financial and operational
benefits by consolidating its accounting functions.

■ FY 2005 DOT Financial Statements
  Determine whether: (1) principal DOT Consolidated Financial Statements
and accompanying notes are presented fairly, in all material respects, and in
conformity with U.S. generally accepted accounting principles; (2) DOT has
adequate internal controls over financial reporting, including safeguarding

                                                                            work planned and in progress   5
                                    assets; (3) DOT has complied with laws and regulations that could have a direct
                                    and material effect on the DOT Consolidated Financial Statements or those
                                    that have been specified by OMB, including the Federal Financial Management
                                    Improvement Act of 1996; (4) financial information in the Management
                                    Discussion and Analysis is materially consistent with the information in the
                                    principal DOT Consolidated Financial Statements; (5) internal controls
                                    ensured the existence and completeness of reported data supporting perform-
                                    ance measures; and (6) supplementary, stewardship, and other accompanying
                                    information is consistent with management representations and the DOT
                                    Consolidated Financial Statements.

                                    ■ NTSB Federal Information Security Management Act Review 2005
                                       Prepare the Statement of Work for contractors’ biddings and research phas-
                                    es and award the contract by May 31, 2005.

                                    ■ FY 2005 Audit of Highway Trust Fund (HTF) Financial Statements
                                      Perform a quality control review of the work performed by the Independent
                                    Public Accounting firm selected to audit FY 2005 HTF Financial Statements to
                                    ensure the audit is performed in accordance with U.S. Generally Accepted
                                    Government Auditing Standards and OMB Bulletin 01-02, Audit
                                    Requirements for Federal Financial Statements.

                                    ■ FY 2005 Audit of the Federal Aviation Administration’s Financial Statements
                                      Ensure the Independent Public Accounting firm audits the FAA’s FY 2005
                                    Financial Statements in accordance with the U.S. Generally Accepted
                                    Government Auditing Standards issued by the Comptroller General of the
                                    United States and OMB guidance.

                                    ■ Computer Security and Controls Over the National Driver Registry (NDR)
                                       Determine whether: (1) personal identification information stored in the
                                    NDR can be accessed for unapproved use; (2) traffic violations are timely and
                                    accurately processed for NDR reporting; (3) an adequate contingency plan
                                    exists to ensure business continuity; and (4) risks associated with NDR system
                                    operations are properly assessed, tested, and mitigated to meet minimum
                                    Government security standards.

                                    ■ Review of Spending Priorities for the Office of the Assistant Secretary for
                                       Administration
                                       Determine if the resources requested are commensurate with mission respon-
                                    sibilities.




6   Semiannual Report to Congress
■ Use of Multiple Award and Task and Delivery Order Contracts, FAA
  Examine the use of contracts to determine whether the awards are made
competitively and in a cost efficient manner. Also, review the effectiveness of
the administration of these contracts.

■ Corrective Actions To Prevent Anti-Deficiency Act Violations, FTA
   Based on an FY 2005 Appropriations Act request, examine the adequacy of
FTA’s corrective actions for ensuring that internal control weaknesses and
accounting practices associated with incurring and covering up a material Anti-
Deficiency Act violation of over $500 million have been eliminated.

                 SURFACE AND MARITIME PROGRAMS
■ Federal Highway Administration’s Oversight of Structurally Deficient Bridges
   Evaluate whether (1) structurally deficient bridges on the National Highway
System have been inspected in accordance with National Bridge Inspection
Standards and (2) the Federal Highway Administration’s oversight is effective
to address the deficiencies on these bridges.

■ Federal Motor Carrier Safety Administration Oversight of the Commercial
   Drivers License (CDL) Program
   Provide FMCSA management with observations regarding the issuance of
fraudulent CDLs and determine what actions FMCSA has taken to ascertain the
status of the suspect drivers.

■ Federal Transit Administration Bus Procurement Processes
   Determine whether FTA’s oversight ensures that transit agencies using
Federal funds to purchase and operate transit bus fleets: (1) follow procurement
and management practices in accordance with Federal guidelines, and (2) have
instituted business practices that achieve the most cost effective use of Federal
dollars.

■ Central Artery/Tunnel Project 2004 Finance Plan
   Determine whether the 2004 Finance Plan: (1) presents a cost estimate
that is based on all known and reasonably expected costs, (2) identifies
appropriate and available funding sources sufficient to meet the total esti-
mated cost, (3) provides a project construction schedule that is based on all
known and reasonably anticipated delays, and (4) discloses other issues
affecting the project.




                                                                          work planned and in progress   7
                                    ■ Highway-Rail Grade Crossing Inspections, Accident Reporting, and
                                       Investigations
                                       Assess the adequacy of the Federal Railroad Administration’s oversight of
                                    highway-rail grade crossing safety inspections, accident reporting requirements,
                                    and accident investigations.

                                    ■ Audit of Motor Carrier Safety Program
                                       Assess the FMCSA’s progress in: (1) implementing the OIG’s recommen-
                                    dations from the April 1999 audit report, (2) implementing the Motor Carrier
                                    Safety Improvement Act of 1999 (MCSIA) requirements on new entrant motor
                                    carriers, and (3) issuing rulemakings required by the MCSIA.

                                    ■ NHTSA’s Oversight of Alcohol-Impaired Driving Programs
                                       Identify the defining characteristics that constitute alcohol-related crashes;
                                    compare the scope, direction, resources, and expenditures of programs and
                                    activities of those states with the highest and lowest alcohol-related fatalities,
                                    including the use of high visibility law enforcement methods; and determine
                                    Federal resources dedicated to this effort.

                                    ■ FHWA’s Oversight for Implementing Value Engineering (VE)
                                       Determine whether FHWA’s oversight is adequate to ensure that: (1) VE
                                    studies are performed in accordance with established criteria and (2) VE rec-
                                    ommendations are timely and implemented to the maximum extent possible,
                                    permitting potential savings to be achieved.

                                    ■ Oversight and Workforce Strategic Issues in the FHWA
                                      Determine the extent to which FHWA’s current work activities are focused
                                    on states’ management practices and how the future workload is expected to
                                    change, and evaluate whether Federal-aid divisions have the multi-discipli-
                                    nary workforce and tools needed to effectively perform program and project
                                    oversight.

                                    ■ FHWA’s Cost Recovery Actions
                                       Evaluate (1) FHWA’s oversight of states’ processes and procedures for con-
                                    trolling, identifying, and tracking design errors and/or omissions on projects
                                    and (2) the progress made by FHWA and the states in recovering costs result-
                                    ing from design errors and/or omissions.

                                    ■ Risk Mitigation on Lower Manhattan Recovery Effort
                                      Evaluate FTA’s management process to identify and mitigate project risks.




8   Semiannual Report to Congress
■ Follow-Up on the North American Free Trade Agreement
   Verify that FMCSA has the staff, facilities, equipment, and procedures in
place to comply with the provisions in Section 350 of the FY 2002
Transportation and Related Agencies Appropriations Act.

■ Major Project Cost Estimating Activities
   Determine frequent factors that cause cost estimates to be unreliable, evalu-
ate efforts to improve cost estimating guidance, and identify opportunities to
improve oversight of project sponsor processes and procedures for preparing
credible cost estimates.

               COMPETITION AND ECONOMIC ANALYSIS
■ Status Review of the Designated High-Speed Rail Corridors
   Assess the status of each of the designated corridors, focusing on demand
studies performed to date, expense projections, estimated capital require-
ments, and proposed implementation schedules.

■ Assessment of Amtrak’s Route Structure
  Evaluate potential options for restructuring some of Amtrak’s long distance
routes to reduce its Federal subsidy requirement.

■ Assessment of Amtrak’s Financial Performance and Capital Requirements
   Evaluate and analyze Amtrak’s current financial status and the reasonableness
of its 5-year strategic capital plan.

■ Financing the Aviation System
   Examine the financing structure (i.e., taxes, fees, and prices) supporting the
operation of and investment in the airway system in the United States, and
assess whether a different funding model could produce more efficient opera-
tion of the system while also providing better information to direct investment
in it.

■ Airline Metrics
   Update statistics on airline industry metrics regarding air service demand and
capacity, service performance, airline finances, and air service at small airports.
These metrics provide decision makers with past, present, and future indicators
of domestic service levels and the general state of the airline industry.




                                                                            work planned and in progress   9
10   Semiannual Report to Congress
                    activities


                   DOT Information Security Program
October 1, 2004
   We issued our final report on the annual audit of the Department of
Transportation’s Information Security Program as required by the Federal
Information Security Management Act. During FY 2004, DOT made a con-
certed effort to correct weaknesses identified during previous years. However,
we found that the CIO office and Operating Administrations need to better
coordinate IT budget requests in order to clearly describe the sources and uses
of IT funds; the quality of security certification reviews need to be improved;
and air traffic control system security must be enhanced. We made several rec-
ommendations to the DOT CIO to improve IT management controls; net-
work and Internet (web) security; system security certification reviews; air traf-
fic control system security, and system contingency planning.

 Former Colorado Businessman Ordered to Pay Over $14 Million

    and Jailed Over Four Years in Motor Fuel Tax Evasion Case

October 26, 2004
   Thomas W. Quintin was sentenced in U.S. District Court in Denver, Colorado
to 51 months in prison and $14,131,015 in restitution and special assessment for
defrauding the federal government as well as the states of Colorado, Wyoming
and Nebraska by not paying excise fuel tax. On June 3, 2004 Quintin pled guilty
to 15 counts of tax evasion and 98 counts of mail fraud. From approximately
1989 through 1993 Quintin operated a motor fuel distribution system including
two wholesale supply and twenty retail sales outlets. He engaged in a tax evasion
scheme which involved using the wholesale companies to obtain federal and
state licenses to purchase fuel from suppliers free from state and federal taxes.
The fuel obtained from suppliers was then sold through the retail outlets
owned by Quintin’s wife, Sandra J. Westphal. Quintin underreported and
underpaid the amount of taxes due to the states and federal government. The
tax loss to the federal government (and the highway trust fund) was over
$7.5 million. Quintin was a fugitive from 1996 and subsequently jailed in
Canada until January 2003. Westphal, who faces similar charges, is in Canada
awaiting extradition. This is a joint investigation with the Internal Revenue
Service (IRS) in cooperation with the Colorado and Nebraska Departments
of Revenue and the Wyoming DOT.


                                                                                     activities   11
                                     Security and Controls Over Technical Center Computer Systems, FAA
                                     November 5, 2004
                                         We issued a report to the Federal Aviation Administrator on security and
                                     controls over en route air traffic control developmental systems located in the
                                     computer laboratory at FAA’s William J. Hughes Technical Center. This is the
                                     second in a series of reports concerning en route air traffic control systems secu-
                                     rity. New systems or upgrades cannot be deployed to en route centers to sup-
                                     port high-altitude (above 18,000 feet) air traffic control without first being
                                     tested on the developmental systems in the Technical Center computer labora-
                                     tory. We made specific recommendations to strengthen security protection over
                                     en route developmental systems. FAA management concurred with our find-
                                     ings and has taken corrective actions to secure outside entities’ connections to
                                     the Technical Center network, eliminate computer vulnerabilities, improve
                                     access controls to the computer laboratory and developmental systems, and
                                     enhance contingency planning for essential operations at the Technical Center.
                                     The Department of Transportation has determined that this report contains
                                     Sensitive Security Information as defined by 49 CFR Part 1520. Accordingly,
                                     it is not available for public inspection or copying.

                                          Review of Law Enforcement Authority for Railroad Police
                                     November 10, 2004
                                              At the request of the Senate Committee on Commerce, Science, and
                                           Transportation, we reviewed the authority, duties, and use of railroad
                                           police, particularly for non-law enforcement purposes. We found that:
                                           (1) law enforcement authority for railroad police derives from the states;
                                           (2) while employee-related matters comprise a very small part of the
                                           overall caseload, there still were almost 1,000 such cases in 2003; and
                                           (3) of the six specific instances brought to our attention for review, some
                                           cases did not reflect an appropriate, prudent application of police
                                           resources.

                                               We observed that railroads, in general, can benefit from guidance gov-
                                            erning the conduct of employee investigations; policies governing
                                            employee-related matters for which police involvement would be merit-
                                            ed; internal affairs programs; and collection and maintenance of accurate
                                            and sufficiently comprehensive police activity data. We also recom-
                                     mended that the President of Amtrak request that the Inspector General review
                                     one particular case that came to our attention to determine the propriety of the
                                     railroad police actions and the adequacy of the subsequent investigation, and
                                     perform an assessment of the adequacy of the Amtrak Police employee incident
                                     policy and procedures and internal affairs program.


12   Semiannual Report to Congress
                   activities


                    DOT Financial Statement Audits
   The Chief Financial Officers Act (1990), as amended by the Government
Management Reform Act (1994), requires all Federal agencies to issue annual
financial reports to improve Federal management of financial practices and to
ensure reliable and timely financial information. To meet these requirements,
we conduct audits of the Department’s consolidated financial statements,
FAA’s financial statements, and the Highway Trust Fund. In addition, we
review audits of financial statements for the National Transportation Safety
Board (NTSB) and the Saint Lawrence Seaway Development Corporation.

    Quality Control Review of Audited Financial Statements for 

          FY 2004 and FY 2003, Saint Lawrence Seaway 

                    Development Corporation

November 9, 2004
   We issued our quality control review of the audit giving an unqualified or
"clean" opinion for SLSDC’s FY 2004 financial statements. We found that the
audit, conducted by contractor Dembo, Jones, Healy, Pennington, & Marshall,
P.C. of Rockville, MD, was performed in accordance with applicable standards.
The actual financial statements are available on the Saint Lawrence Seaway
Development Corporation web site.

           National Transportation Safety Board FY 2004 

                       Financial Statements

November 10, 2004
   We issued our quality control review of the audit giving an unqualified or
"clean" opinion for NTSB’s FY 2004 financial statements. The report present-
ed two material weaknesses previously reported by management and made two
new recommendations. We found that the audit, conducted by contractor
Leon Snead & Company of Rockville, MD, was performed in accordance with
applicable standards. More information from the actual report can be found in
the NTSB 2004 DOT Performance and Accountability Report.




                                                                                activities   13
                                       Highway Trust Fund FY 2004 and FY 2003 Financial Statements
                                     November 12, 2004
                                        We issued our audit report on the FY 2004 and FY 2003 financial statements
                                     of the Highway Trust Fund, in which we concurred with the unqualified or
                                     "clean" opinion of Clifton Gunderson LLP of Calverton, MD. As required
                                     under the Chief Financial Officers Act, the audit categorized significant financial
                                     management and accounting deficiencies as four material weaknesses and one
                                     reportable condition, and made 24 recommendations to correct these problems.
                                     The Department’s Chief Financial Officer concurred with the weaknesses and
                                     agreed with the recommendations. More information from the actual report can
                                     be found in the 2004 DOT Performance and Accountability Report.

                                                  Federal Aviation Administration FY 2004 and
                                                         FY 2003 Financial Statements
                                     November 12, 2004
                                        We issued our audit report on the FY 2004 and FY 2003 financial state-
                                     ments of the Federal Aviation Administration, in which we concurred with
                                     the unqualified or "clean" opinion of KPMG LLP of Washington, DC. As
                                     required under the Chief Financial Officers Act, the audit categorized finan-
                                     cial management and accounting deficiencies as five reportable conditions
                                     and made 23 recommendations to correct these problems. The Federal
                                     Aviation Administration concurred with the reportable conditions and
                                     agreed with the recommendations.

                                     DOT Consolidated Financial Statements for FY’s 2004 and 2003
                                     November 15, 2004
                                        We issued a favorable report on DOT’s consolidated financial statements
                                     for FY’s 2004 and 2003. This is the fourth fiscal year in a row-2001, 2002,
                                     2003, and 2004-that DOT has achieved an unqualified or "clean" opinion on
                                     accounts representing year-end assets of about $68 billion, year-end liabilities
                                     (debts) of $13 billion, costs of operations (program costs) of $58 billion, and
                                     total budgetary resources (available financial resources) of $105 billion. The clean
                                     audit opinion signals to users of the financial statements that they can rely on the
                                     information presented. Significantly, this year also marked the transition to a new
                                     integrated accounting system and the only one at a large cabinet department.
                                     FAA deserves credit for addressing significant challenges this year. Highway Trust
                                     Fund Agencies need to address financial management and grant oversight issues.
                                     Continued executive level attention, backed by skilled resources, will be critical to
                                     correct the remaining deficiencies. More information on the DOT financial state-
                                     ments can be found in the 2004 DOT Performance and Accountability Report.


14   Semiannual Report to Congress
                    activities


                   DOT’s Top Management Challenges
November 15, 2004
   In accordance with OMB Circular A-136, we issued our report on the
Department of Transportation’s (DOT) top management challenges for FY 2005.
In considering the items for this year’s list, we continue to focus on the
Department’s key strategic goals to improve transportation safety, capacity, and
efficiency.

■ GETTING THE MOST VALUE FROM INVESTMENTS IN HIGHWAY AND
TRANSIT INFRASTRUCTURE PROJECTS. Highway Trust Fund revenues are
falling short of what is needed for important transportation projects.
Therefore, it is critical that the Department ensures infrastructure improve-
ments are delivered on time and within budget, while yielding the greatest
benefits for their costs. Taking these actions is imperative, as a 1-percent
improvement in the efficiency with which states managed the $700 billion
investment in highway projects over the last 6 years would have yielded an addi-
tional $7 billion for infrastructure improvements-enough to fund 9 of 18 active
major projects.

■ DELIVERING AIR TRAFFIC CONTROL SERVICES AND FIELDING NEW AIR
TRAFFIC CONTROL EQUIPMENT WHILE CONTROLLING COSTS IN A FIXED
BUDGET ENVIRONMENT. The Federal Aviation Administration (FAA) faces
challenges as funding requirements significantly outpace revenue from aviation
taxes. In FY 2005, FAA’s budget is expected to exceed Trust Fund revenues
by over $3 billion. Other challenges include addressing an expected surge in
controller attrition, containing costs, and fielding existing modernization proj-
ects while effectively managing a new multi-billion dollar project.

■ INCREASING AVIATION CAPACITY AND MITIGATING DELAYS. In some
markets, air traffic and delays are returning to the intolerable gridlock lev-
els experienced in 2000. Delays were particularly disruptive earlier last year
at several key airports; one reported a 40-percent increase in delays over
the same period in 2000. The Department is challenged to keep planned
technological and infrastructure projects on schedule while effectively
relieving congestion and delays in the interim and exploring market-based
solutions where increased physical capacity is not a viable alternative.

                                                                                    activities   15
                                     ■ ENSURING SAFETY IN A CHANGING AVIATION ENVIRONMENT. FAA and
                                     U.S. air carriers have maintained a remarkable safety record, but FAA needs to
                                     remain vigilant in adjusting its safety oversight to the industry’s emerging
                                     trends, such as the rapid growth of low-cost and regional air carriers and the
                                     record-breaking monetary losses of network air carriers — at least $21.8 billion
                                     in the past 3 years. FAA must continue progress in reducing runway incursions
                                     and operational errors and in developing reliable procedures for reporting
                                     those errors.

                                              ■ ENSURING THAT SURFACE SAFETY PROGRAMS LEAD TO MORE
                                              LIVES SAVED. More than 40,000 people die each year on the Nation’s
                                              highways and at highway-rail crossings. The Department has set ambi-
                                              tious targets for reducing fatality rates in the future, which means it must
                                              address issues such as seatbelt laws, SUV rollover concerns, laws against
                                              alcohol-impaired driving, vehicle defects, implementation of statewide
                                              Comprehensive Highway Safety Plans, state and local processes for pro-
                                              gramming funds for roadway safety countermeasures, commercial dri-
                                              ver’s license fraud, better safety data, and safer highway-rail grade cross-
                                              ings. Ensuring that these efforts bring about reductions in accidents and
                                     fatalities will require leadership by the Operating Administrations and consid-
                                     eration of possibly controversial solutions.

                                     ■ STRENGTHENING FINANCIAL MANAGEMENT TO PROTECT FEDERAL
                                     FUNDS. The Department has made progress in correcting longstanding finan-
                                     cial management deficiencies, but challenges remain. These include freeing up
                                     millions of dollars in idle funds for use on active projects and exercising greater
                                     stewardship over the more than $35 billion awarded annually on highway and
                                     transit projects. The Department must also consolidate or replace fragmented
                                     financial systems to help executives improve operations.

                                     ■ HOLDING THE LINE ON PROGRAMS CONDUCIVE TO FRAUD. Given
                                     today’s funding demands and increasingly tight budgets, getting the most for
                                     our money by aggressively deterring fraud is of critical importance. Over the
                                     past several years, our investigations point to three key program where fraud
                                     has had a particularly insidious effect on DOT’s mission: (1) highway and tran-
                                     sit infrastructure programs — we are investigating more than 135 of these
                                     fraud schemes in 37 states; (2) Commercial Driver’s License (CDL) programs-
                                     we have investigated and prosecuted over 75 CDL fraud schemes in 21 states;
                                     and (3) the Disadvantaged Business Enterprise (DBE) program — we are cur-
                                     rently investigating 45 DBE fraud schemes in 19 states. The Department must
                                     remain focused on reducing fraud in these areas.



16   Semiannual Report to Congress
                    activities


■ IMPROVING COST EFFECTIVENESS OF $2.7 BILLION IN INFORMATION
TECHNOLOGY INVESTMENTS AND CONTINUING TO ENHANCE COMPUTER
SECURITY. DOT is responsible for one of the largest information technology
(IT) investment portfolios among civilian agencies, investing about $2.7 billion
annually in IT acquisitions and operations, many of which have experienced
significant cost overruns and schedule delays. During FY 2004, DOT made
strides in increasing its oversight of major IT investments, but still needs a con-
sistent management review process. Continued improvements are also needed
in the areas of computer security, especially for air traffic control systems secu-
rity. Another area needing improvement involves IT funding and operations
and the changing responsibilities of the Office of the Chief Information Officer.
Specifically, DOT needs to adjust the IT budget submission practice to better
align resources with responsibilities and to avoid the appearance of duplicate
budget requests.


■ RESTRUCTURING THE INTERCITY PASSENGER RAIL SYSTEM TO
MATCH FISCAL CAPACITY. Judging by the House and Senate
marks for Fiscal Year (FY) 2005 for $900 million and $1.2 billion,
respectively, and in view of the fact there is no authorization for
Federal funding in 2005, it seems likely that Amtrak will receive sub-
stantially less Federal funding than its request of $1.8 billion. DOT
must continue to work with Congress to break the cycle of appro-
priations without authorization for Amtrak and to realign the size,
operations, and governance of the system to match the levels and
sources of funding available.


■ MANAGEMENT ATTENTION NEEDED TO STRENGTHEN OVERSIGHT OF
TITLE XI LOAN. In FY 2004, the Maritime Administration’s (MARAD)
consolidated Title XI loan guarantee portfolio was valued at $3.6 billion,
with another $1.4 billion in pending loan guarantee applications. MARAD
has determined that over 25 percent of its portfolio is at an elevated risk of
default. Strengthened management procedures are critical to reducing the
portfolio risk profile and realizing the intended benefits. MARAD has worked
to get satisfactory procedures in place, but follow through and implementation
are essential. The Department will need to monitor MARAD’s progress.



                                                                                      activities   17
                                                  In addition to the 10 management challenges presented, there are
                                               three emerging issues which are overarching in nature and will require
                                               Secretarial direction or cross-modal coordination.

                                              ■ ENSURING TRANSPORTATION FUNDS ARE ADEQUATE TO MEET
                                              GROWING NEEDS. The highway and aviation trust funds, which are
                                              supported by passenger, fuel, and user taxes, are not generating suffi-
                                              cient revenue to cover anticipated costs of transportations systems.
                                              This is partly due to changes in the aviation sectors, such as lower
                                              average base ticket prices ($109 in September 2004 versus $147 in
                                              September 2000). At the same time, the costs of building, operating,
                                              and maintaining transportation systems continue to rise. Options for
                                              funding the aviation shortfalls, such as paying down trust fund or tap-
                                              ping the General Fund, may prove increasingly difficult in the future.
                                     The Department’s challenge in the next few years will be to evaluate whether
                                     the current funding methods are adequate and whether alternative financing
                                     methods are feasible.

                                     ■ GROWING INTERDEPENDENCY AMONG DOT AND OTHER FEDERAL
                                     AGENCIES TO ENDURE SAFE, SECURE, AND EFFICIENT TRANSPORTATION.
                                     Federal agencies, such as DOT and the Department of Homeland Security
                                     (DHS), are increasing collaborative efforts to protect the Nation’s citizens,
                                     transportation infrastructure, and the environment. However, there is a lack of
                                     clearly defined roles among the Federal entities at the working level, which
                                     could lead to duplicative or conflicting efforts, ineffective intergovernmental
                                     relationships, depleted resources, and — most importantly — problems in
                                     responding to terrorism. DOT has identified more than 100 agreements either
                                     existing or under development with DHS, but determining which agreements
                                     are needed will be a challenge.

                                     ■ MEETING HUMAN RESOURCE NEEDS GIVEN RETIREMENTS AND
                                     CHANGING SKILL MIX. DOT has made progress in its human capital initia-
                                     tives, but human resources management will be a concern for many years to
                                     come. In FY 2007, about 23 percent of DOT’s nationwide workforce of
                                     approximately 60,000 will be eligible to retire, including large numbers of
                                     supervisory staff. FAA attrition estimates show that nearly half of its controller
                                     workforce of 15,000 could leave between FY 2005 and FY 2012. The
                                     Department is in the early stages of addressing these issues. Although it will be
                                     a challenge to hire and retain a sufficient quantity of quality staff, there is also
                                     an opportunity for agencies to revamp their organizations by hiring employees
                                     with the latest technical skills and knowledge and placing them where they are
                                     needed most.


18   Semiannual Report to Congress
                     activities


  2003 Status Assessment of Federal Aviation Administration Cost
                 Accounting System and Practices
November 17, 2004
   As required by law, we audited the status of FAA’s cost-accounting and
labor-distribution systems as of December 31, 2003. During 2003, significant
changes occurred at FAA, such as implementing the new Delphi financial man-
agement system and creating the new Air Traffic Organization. These changes
should strengthen financial operations and efficiency of air traffic services, but
temporarily slowed implementation of the cost accounting system. FAA needs
to: (1) complete its cost accounting system, including modifying the system to
reflect the new Air Traffic Organization; (2) implement a labor distribution sys-
tem for controllers’ that assigns labor costs to activities; (3) implement data col-
lection process and cost assignment methods to assign substantially all costs to
individual facilities and activities; (4) document the system; and (5) implement
financial and performance goals and measures, using the cost accounting data
to improve efficiency of operations.

        New York Construction Contractor Pleads Guilty and
                    Agrees to Pay $300,000
November 17, 2004
   Srinivas Thimmappa, the former project manager of Trataros Construction
Inc. (TCI), Brooklyn, New York, pled guilty in U.S. District Court in Brooklyn
to charges of making false statements and agreed to pay $300,000 in restitu-
tion. Thimmappa created a shell company in a scheme to defraud TCI and the
New York Metropolitan Transportation Authority, FTA’s largest grantee. The
investigation found that although Thimmappa claimed to be performing part-
time engineering work for Logix Constructions Services (Logix), Logix did not
perform any work on the project, but submitted bills for such work to TCI.
This case was investigated jointly with the FBI and the General Services
Administration OIG.




                                                                                       activities   19
                                          Assessment Report on Amtrak’s 2003 and 2004 Financial
                                                     Performance and Requirements
                                     November 18, 2004
                                               As required by Congress, we issued our report on Amtrak’s financial
                                            performance for 2003 and through the first three quarters of 2004.
                                            Amtrak has implemented a strategy of maintaining and rebuilding its
                                            existing system. However, unsustainably large operating losses, poor on-
                                            time performance, and increasing levels of deferred infrastructure and
                                            fleet investment demonstrate that this approach is no longer workable.
                                            Amtrak’s management must find ways to reduce its need for operating
                                            subsidies and set better priorities for its capital dollars. In the meantime,
                                            Amtrak’s Board of Directors should exert its prerogatives and compel
                                            management to reduce its reliance on operating subsidies and minimize
                                            further deferral of critical capital investment. If these actions are not suc-
                                            cessful, the Department should impose conditions for awarding
                                            Amtrak’s FY 2005 operating and capital grants.

                                              Managing Risk in the Federal-Aid Highway Program
                                     November 19, 2004
                                        We found that the use of risk assessments by FHWA’s division offices does
                                     not provide a systematic approach for assessing program risks throughout the
                                     agency. The risk assessments did not address all major programs, were not con-
                                     sistent in scope and approach, and differed in risk classification. Further, FHWA
                                     did not follow up to ensure division offices properly refocused oversight around
                                     identified risks or use the results to analyze program trends. We recommended
                                     that FHWA require that all division offices conduct risk assessments; issue guid-
                                     ance identifying major programs and program components to be evaluated and
                                     the methodology to be used for evaluating and classifying program risks; ana-
                                     lyze the individual risk assessment results to identify program-wide issues; and
                                     follow-up with division offices to ensure oversight attention is given to high-
                                     risk areas. FHWA concurred with our recommendations.

                                         Report on Terminal Modernization: FAA Needs To Address 

                                            Its Small, Medium, and Large Sites Based on Cost, 

                                                           Time, and Capability

                                     November 23, 2004
                                       We issued an audit report on our review of the Federal Aviation
                                     Administration’s (FAA) Standard Terminal Automation Replacement System
                                     (STARS) program, in response to a Fiscal Year (FY) 2004 congressional direc-



20   Semiannual Report to Congress
                    activities


tive. STARS provides radar and flight data to air traffic controllers at Terminal
Radar Approach Control sites and their associated towers. Faced with addi-
tional cost growth in the STARS program, FAA is rethinking its terminal mod-
ernization approach and has committed STARS deployment to just 50 out of
162 planned sites. Currently, STARS has been deployed at 25 sites. Under
FAA’s current approach, STARS installation and replacement of aging con-
troller displays at large sites will begin in FY 2008, well after the originally
planned 2005 timeframe. The aging displays at large sites need to be replaced
well before 2008 because they are experiencing significant reliability problems.
FAA must move forward expeditiously to address the needs of its terminal sites,
particularly the needs at the large terminal sites.


    Former Minnesota FAA Air Traffic Controller Sentenced for

                    Solicitation of a Minor

November 29, 2004
   Former FAA air traffic controller Shawn Patrick Barnett was sentenced in
Dakota County District Court, Hastings, Minnesota to 30 days in jail, proba-
tion, and electronic home monitoring for Internet solicitation of a minor. In
addition, Barnett is to have no unsupervised contact with a minor; he must
register as a sex offender and submit to a DNA sample; submit to random
chemical/substance testing; and complete a sex offender treatment program.
In April 2004, Barnett admitted to using his personal laptop computer during
breaks at his workplace in the Farmington, Minnesota Enroute Air Traffic
Control Center to solicit sex online with someone posing as a 13-year old
female. Barnett’s employment with the FAA was terminated in June 2004.
The case was jointly investigated with the Farmington Police Department, and
the ‘Minnesota Internet Crimes Against Children’, with assistance from FAA.

           Review of Allegations that FRA Attempted To Relax

                          Safety Enforcement 

December 10, 2004
   At the request of Secretary Mineta, we investigated allegations by a former
employee that the Federal Railroad Administration (FRA) relaxed safety
enforcement against Union Pacific Railroad (Union Pacific) due to a long-stand-
ing friendship between the Deputy Administrator and a Union Pacific executive.



                                                                                    activities   21
                                     Our investigation did not substantiate the allegation. However, our analysis
                                     resulted in a recommendation that FRA’s inspection and enforcement efforts
                                     utilize systematic trend analysis and other data analysis tools to address those
                                     safety problems and key indicators of a railroad’s safety condition that are most
                                     likely to result in accidents and injuries.

                                        We recommended that FRA submit to the Secretary a comprehensive plan
                                     for implementing a fully functioning program that makes meaningful use of
                                     analysis of available safety, inspection, and enforcement data. We recommend-
                                     ed the plan: (1) focus field inspection activities, (2) assess when a partnership
                                     approach is no longer effective and more traditional enforcement (i.e., fines) is
                                     warranted, and (3) determine appropriate numbers and amounts of fines by
                                     factoring in prior safety/enforcement history and trends.

                                        Two Trucking Companies Fined a Total of Over $1 Million in
                                             Connection with Falsification of Driver Logbooks
                                     December 21, 2004
                                        A U.S. District Court judge in Fresno, California sentenced two West coast
                                     trucking firms on charges related to falsified driver logbooks: Ore-Cal Livestock,
                                     Inc. (Ore-Cal), Merrill, Oregon was ordered on December 21, 2004 to pay a fine
                                     of $1.077 million, of which $1 million is to be paid to the California Highway
                                     Patrol over a 5-year period for combating DOT hours of service violations,
                                     and $50,000 to DOT for reimbursement of investigation costs; Beef Packers,
                                     Inc., Fresno, California was fined $5,000 on December 3, 2004. Seven Ore-Cal
                                     drivers who were also charged with falsifying logbooks were sentenced on
                                     December 22, 2004 to pay $1,200 each. Three other California trucking
                                     companies and 16 employees were indicted by a federal grand jury in
                                     December 2004 on similar charges which remain pending for all except one
                                     driver who was offered the option under a February 14, 2005 sentence to
                                     either remain in the United States on a 36-month supervised release term or
                                     leave the country; he elected to leave. The investigation is being conducted
                                     with assistance from FMCSA.




22   Semiannual Report to Congress
           Flight Cancellations and Delays
          Disrupt 2004 Holiday Travel Period



A
      ir travelers across the country experienced unprecedented flight cancella­
       tions and delays during 2004’s peak holiday travel season, as winter storms,
        computer glitches, and labor problems grounded nearly
1,000 flights between December 22 and 28. In total, nearly half
of that week’s 162,000 scheduled flight departures were either
canceled or delayed. Compounding passenger inconvenience
were tens of thousands of misdirected bags; this was largely due
to severe weather in the Northeast and Midwest regions of the
country and an unusually large number of “sick calls” from bag-
gage-handlers.
  While the delays, cancellations, and lost baggage occurred
throughout the air system and at many airlines, two airlines
experienced the most and worst operational problems —
Comair and US Airways. Comair, a Delta Connection carrier
based in Cincinnati, either canceled or delayed 89 percent of its scheduled 2004
holiday travel period departures. Systemwide, 53.8 percent of US Airways flights
were delayed and another 5.2 percent were canceled during the same period.
  At the request of Secretary Mineta, the OIG conducted a review of the two air­
lines’ service disruptions. While both airlines experienced severe service problems,
the underlying causes, effects, and recovery steps differ significantly.


COMAIR
Comair’s service disruptions resulted primarily from:
■ A severe winter storm at the carrier’s Cincinnati hub, which led to signifi­
cant flight delays and cancellations;
■ The shut down of a computer system used to track the thousands of flight
crew changes caused by the air traffic disruptions.          The system was pro­
grammed with a monthly transaction limit that Comair was not aware of, and
when the limit was reached, the system shut down.
■ The capacity of Comair’s manual back-up system for flight crew changes,
which could only support a limited number of flights. The system automati­
cally canceled hundreds of additional flights, including all Comair flights on
Christmas Day.
  By the end of the holiday period, over 260,000 passenger itineraries had been
affected by canceled or delayed flights, according to Comair. Comair also had
claims for 11,000 mishandled bags, including 6,800 bags for passengers con­
necting through the Cincinnati Airport.




                                                                                   activities   23
                                                        Despite Comair’s effort to minimize passenger inconvenience during this
                                                    period, the severity of the disruptions took a heavy toll on thousands of holiday
                                                    travelers who were unable to reach their destinations. Comair has temporarily
                                                    addressed its computer problems with an interim fix that doubled the system’s
                                                    capacity pending the installation of a new crew scheduling system due in July
                                                    2005.

                                                    US AIRWAYS
                                                      Unlike the weather conditions and computer problems that nearly shut
                                                    down Comair’s operations in Cincinnati, weather was not the primary contribu­
                                                    tor to the service disruptions experienced by US Airways during the December
                                                    2004 holiday travel period. The airline’s problems were largely due to staffing
                                                    shortfalls in two critical functions — fleet service employees and flight atten­
                                                    dants, primarily at its Philadelphia hub.
                                                      Managers were aware of those problems before the holidays and had made
                                                    various plans to offset the shortages, such as using overtime and increasing flight
                                                    attendants’ required work hours. However, those plans ultimately failed to alle­
                                                    viate the critical labor shortages experienced in December. By the end of the hol­
                                                    iday period, US Airways had either canceled or delayed more than 4,000 flights,
                                                    affecting over 560,000 passengers. The airline also had nearly 72,000 claims for
                                                    lost, pilfered, or damaged baggage but could not tell us the total number of
                                                    bags those claims represented.
                                                      US Airways subsequently made an intensive effort to increase staffing at its
                                                    Philadelphia baggage operations and made job offers to over 260 applicants. In
US Airways passengers file through lines of
lost baggage hoping to locate their bags.
                                                    addition, according to US Airways management, the most recent collective bar­
                                                    gaining agreement with the Association of Flight Attendants allowed the air­
                                                    line to order an increase to the monthly flying obligation of flight attendants
                                                    by 5 to 10 hours.
                                                      At the time of our review, the airline was in bankruptcy proceedings, and
                                                    while flight operations and employee work hours increased, their wages
                                                    decreased. We could not determine whether the airline’s actions are sufficient
                                                    to prevent similar problems from occurring in the future.

                                                    IG TRAVEL HOTLINE
                                                      In response to the magnitude of the Comair and US Airways travel disruptions,
                                                    the OIG set up a toll-free hotline for inconvenienced passengers to submit com­
                                                    ments about their travel experiences. Between December 30, 2004, and early
                                                    February 2005, nearly 3,000 passenger complaints were received. About 1,200 hot­
                                                    line complaints were related to Comair/Delta service disruptions, and 1,100 were
                                                    directed at US Airways. The remaining complaints described adverse experiences
                                                    on several other airlines or did not identify a specific airline. By far, the largest com­
                                                    plaint area related to flight delays and cancellations, followed by mishandled bag­
                                                    gage issues. A lack of compensation or refunds and poor customer service account­
                                                    ed for the next largest number of complaints. ■


24                  Semiannual Report to Congress
                   activities


  Follow-Up Audit of the Implementation of the North American

    Free Trade Agreement’s Cross-Border Trucking Provisions

January 3, 2005
   Our audit found that FMCSA has sufficient staff, facilities, equip-
ment, and procedures in place to substantially meet the eight Section
350 provisions in the FY 2002 Transportation and Related Agencies
Appropriations Act subject to OIG review. However, until an agree-
ment or other understandings related to on-site safety reviews are
reached with Mexico, FMCSA cannot, in our view, grant long-haul
operating authority to any Mexican motor carrier. Additionally, given
new background requirements for U.S. drivers applying for hazardous
materials endorsements, an agreement will need to be in place with
Mexico before vehicles owned or leased by a Mexican motor carrier
that is granted operating authority by FMCSA can be permitted to
haul hazardous materials beyond the commercial zones. While the negotiations
are being carried out with Mexico on these two issues, which are preconditions
to opening the border, FMCSA should close remaining gaps in reaching full
compliance with Section 350 requirements related to bus coverage, enforcement
authority, Weigh-in-Motion Systems, and the comprehensiveness of the system
for monitoring Mexican driver records in the United States.

   Bogus FAA Flight Instructor Gets Over Three Years in Jail for

                 Transporting a Stolen Lear Jet

January 5, 2005
    In the last of three related sentencing actions, Jose Francisco
Guasch, a/k/a Jesus Manuel Rios, was sentenced in U.S. District
Court in Ft. Lauderdale, Florida to 37 months in jail for transport-
ing a stolen aircraft in foreign commerce. Guasch had transported a
stolen jet from Florida to Nicaragua in 1997. In December 2004,
Guasch was also sentenced in U.S. District Court in Miami, Florida
to eight months in jail for possessing identification-making devices
and false identification documents, including FAA licenses. The two
prison sentences will be served consecutively and follow a 13-month
jail term that Guasch served in accordance with a January 2004 sen-
tence for making false statements to the FAA in furtherance of his


                                                                                 activities   25
                                     employment as a flight instructor. The investigation was conducted jointly with
                                     the FBI, the Department of Homeland Security-Bureau of Immigration and
                                     Customs Enforcement (DHS-ICE), and the Defense Criminal Investigative
                                     Service (DCIS), with assistance of FAA.

                                     Wisconsin Concrete Construction Company and Owners Ordered
                                     to Pay $1.1 Million and Jailed for Bid Rigging on Approximately
                                                    $100 Million in Highway Projects
                                     January 13, 2005
                                        Streu Construction Co. of Two Rivers, Wisconsin and its owners, Ernest J.
                                     Streu and John Streu, were ordered by a U.S. District Court judge in Green
                                                          Bay, WI to pay a total of $1.1 million in fines and resti-
                                                          tution for bid rigging on approximately $100 million in
                                                          highway construction contracts from pre-1999 until
                                                          January 2004; Ernest Streu was also sentenced to one
                                                          year in prison and one year supervised release, and John
                                                          Streu to five months of prison, five months of house
                                                          arrest, and one year of supervised release. Another firm,
                                                          Vinton Construction Co. of Manitowoc, WI and its
                                                          owners pled guilty in September 2004 to the bid rig-
                                                          ging charges and await sentencing. This is one of the
                                                          largest DOT fraud cases in Wisconsin. The investiga-
                                                          tion was conducted jointly with the FBI, with assistance
                                     from FHWA and the Wisconsin DOT.

                                           Truck Driver Involved in Fatal Accident Pleads Guilty to
                                                         Falsifying Driver Log Book
                                     January 20, 2005
                                        Damon D. Diffenderfer, a driver for G.W.D. Trucking Company (G.W.D.)
                                     of Mays Landing, New Jersey pled guilty in U.S. District Court in Camden,
                                     New Jersey to one count of making a false statement in his Driver’s Daily Log
                                     indicating that he was sleeping during a six-hour period in which he was actu-
                                     ally driving. In May 2004, a 17-count indictment was issued against Damon
                                     Diffenderfer as well as G.W.D. and its owners, Gerald W. and Rose Marie
                                     Diffenderfer on related charges of conspiracy and false statements or entries.
                                     Damon Diffenderfer is currently serving three years in state prison following
                                     his conviction on vehicular homicide charges stemming from a fatal vehicle
                                     crash on the New Jersey Turnpike in April 2001. This investigation was con-
                                     ducted jointly with the New Jersey State Police and the Middlesex County,
                                     New Jersey Prosecutor’s Office, with assistance from FMCSA.



26   Semiannual Report to Congress
                    activities


California Man Jailed for Two Years and Ordered to Pay $435,000
             for Falsifying Aircraft Engine Logbooks
January 27, 2005
   Christian E. Esquino was sentenced in U.S. District Court in San Diego to
two years in prison and ordered to pay $435,000 restitution for falsifying air-
craft engine logbooks. Esquino and another man, Lance Z. Ricotta, participat-
ed in a scheme in which six Cessna aircraft were imported from Mexico, the
logbooks falsified, airworthiness certificates obtained from the FAA on the basis
of those falsified logbooks, and the planes resold. In March 2004, Ricotta and
Esquino both pled guilty to indictments charging them with fraud involving
aircraft. Ricotta was sentenced on October 13, 2004 to a month in prison and
$185,000 in restitution. The investigation was conducted jointly with the FBI,
with assistance from FAA.

  President of Moving Companies Sentenced to Over 12 Years in

          Prison for Holding Household Goods Hostage 

January 28, 2005
   Yair Malol, owner and president of Majesty Moving and Storage, Apollo Van
Lines, America’s Best Movers Co., and My Best Movers, Plantation, Florida
was sentenced in U.S. District Court in Miami, Florida to twelve and one-half
years in prison and ordered to pay $986,665 in restitution for his role in a
scheme that involved luring customers with low estimates and then holding
their possessions hostage for inflated prices. Malol was also ordered to forfeit
assets, including his residence and bank accounts totaling over $115,000, and
to return to his native Israel once his sentence is served. The fraud attributed
to Malol’s companies involved in excess of $1.8 million in monetary losses to
over 1,200 victims during a two-year period. The firms’ secretary and claims
processor, Jennifer Tafuri-Vakin, was also sentenced to one-half year in prison
on January 28, 2005 in connection with this same scheme. Both Malol and
Tafuri-Vakin were convicted in September 2004 on multiple counts of con-
spiracy, mail and wire fraud, and extortion. The investigation, conducted joint-
ly with the FBI and with assistance of FMCSA, resulted in charges against a
total of 16 companies and 74 individuals in the Miami area.




                                                                                    activities   27
                                        DOT Contractor Employee Pleads Guilty to Theft of $45,000
                                       in Washington Metropolitan Area Transit Authority (WMATA)
                                                              Fare Cards
                                     January 31, 2005
                                        Michael Dixon, former employee of CTR Investments and Consulting, Inc.,
                                     Fairfax Station, Virginia, a firm under contract with DOT to assist in distribu-
                                     tion of WMATA fare cards, pled guilty in Superior Court for the District of
                                     Columbia to one felony count of first degree theft. Dixon admitted to stealing
                                     1,500 WMATA fare cards with face values of $30 each from October through
                                     December 2004, which he then sold for personal gain. WMATA inventories
                                     disclosed a shortfall of 2,567 fare cards (or $77,010) during that period.

                                                              FAA Inactive Obligations
                                     January 31, 2005
                                        We issued a final report on our audit of inactive obligations at the FAA.
                                     More aggressive corrective action is required to strengthen FAA’s funds man-
                                     agement of inactive obligations. We reviewed $81 million of inactive obli-
                                     gations related to FAA contracts and procurements and identified that
                                     $35 million, or 43 percent, were not associated with valid liabilities and
                                     were unneeded. We recommended: (1) amending procedures to require that
                                     financial managers, program officials, and contracting specialists coordinate and
                                     complete quarterly and annual reviews; (2) develop best practices for reviewing
                                     inactive obligations; (3) modifying standards to require adequate reviews; and
                                     (4) lowering the threshold to included reviews of inactive obligations below
                                     $500,000. FAA has agreed to deobligate the entire $35 million identified.

                                               Connecticut Design Engineering Company Owner
                                                          Gets 33 Months Jail Time
                                     February 8, 2005
                                        Frank S. Chuang, of Wethersfield, Connecticut, President and owner of L-
                                     C Associates, Inc., Rocky Hills, Connecticut, was sentenced in U.S. District
                                     Court in New Haven, Connecticut to 33 months in jail for contract fraud
                                     and tax evasion. Chuang pled guilty in September 2003 for tax evasion and
                                     false invoice claims for bridge inspection and design engineering services on
                                     multiple federally-funded highway projects in Connecticut, New York,
                                     Massachusetts, and Rhode Island. The contract fraud schemes involved
                                     billing for work not performed and inflating overhead rates. Chuang has paid
                                     a total of $8.76 million pursuant to both civil and criminal settlement agree-
                                     ments, agreed to divest ownership interest and control over L-C Associates,
                                     Inc., and be permanently debarred from performing federal contracts.


28   Semiannual Report to Congress
                   activities


FHWA had suspended Chuang and L-C Associates, Inc. in May 2003. We
conducted this investigation with assistance from the Connecticut DOT,
IRS-CID, the FBI, and FHWA.

 Report on FHWA’s Need To Capture Aggregate Cost and Schedule

       Data To Improve Its Oversight of Federal-Aid Funds

February 15, 2005
   We issued a final report on project data shortfalls in FHWA’s Financial
Management Information System (FMIS) that impact FHWA’s ability to per-
form adequate oversight of more than $30 billion in annual grant payments.
We reported this as a material weakness in our audit of the FY 20004 Highway
Trust Fund (HTF) financial statements and it will negatively affect future
financial statements until corrected. Our report highlights FMIS’s inability to
aggregate the total cost of highway projects and provide needed schedule
data for effective oversight and project delivery. We recommended that
FHWA: (1) expand plans to aggregate project costs in FMIS to ensure they are
aggregated for projects under $1 billion and make that information available
for preparation of the FY 2005 HTF financial statements, and (2) identify a
strategy and associated costs for collecting project schedule data needed to
improve oversight of Federal-aid highway program activities and measure
achievement of the Department’s project delivery goal by March 31, 2005.

Owner of Illinois Trucking Company Jailed and Fined $30,000 for
       Attempting to Bribe an FMCSA Safety Investigator
February 16, 2005
   Dejan Zlatkovic, owner of KGB-ATA Trucking, was sentenced in U.S.
District Court in Chicago, Illinois to nine months in prison and a $30,000 fine
for attempted bribery. In July 2002, a FMCSA safety investigator notified OIG
that Zlatkovic offered him a $10,000 bribe after he conducted a safety compli-
ance review at KGB-ATA Trucking and identified numerous violations of
FMCSA safety regulations. Zlatkovic wanted the safety investigator to alter the
compliance review to reflect a conditional rating. OIG agents were able to
catch Zlatkovic on undercover surveillance making the bribe and used that evi-
dence to convict him.



                                                                                  activities   29
                                     Former Headquarters FAA Contract Employee Sentenced to Prison
                                      and to Pay Over $280,000 for Theft of FAA Employee Identities
                                     February 28, 2005
                                        Robert W. Clark, a former Headquarters FAA contract employee, was sen-
                                     tenced in U.S. District Court, Greenbelt, Maryland, to 18 months in prison
                                     and ordered to pay $280,492 restitution following his guilty plea in November
                                     2004 to trafficking and using unauthorized counterfeit access devices.
                                     Between April 2000 and May 2001, Clark and Felicia Settles of Washington,
                                     DC, illegally obtained the personal information of at least 28 FAA employees
                                     and 4 others from FAA files. Clark and Settles used the stolen information to
                                     create false identification cards and obtained fraudulent lines of credit without
                                     the victims’ knowledge. Settles was sentenced on related charges in November
                                     2004 to one year in prison and ordered to pay $82,000 restitution.

                                          Review of December 2004 Holiday Air Travel Disruptions
                                     February 28, 2005
                                                    Pursuant to Secretary Mineta’s request of December 27, 2004, we
                                                 issued a report on our review of the travel disruptions experienced
                                                 over the December holiday travel period by Comair and US Airways.
                                                 In conducting this review, we worked closely with the Department’s
                                                 Office of Aviation and International Affairs and Office of General
                                                 Counsel. We found that Comair’s problems were a function of severe
                                                 weather at Cincinnati and failure of the computer system it used to
                                                 schedule its crews. In Cincinnati, Comair’s flight cancellations and
                                                 delays ultimately affected over 260,000 passenger itineraries. Comair
                                                 has temporarily addressed its computer problems with an interim fix
                                                 that will double capacity until a new crew scheduling system can be
                                                 installed this summer. Additionally, we found that US Airways’ prob-
                                                 lems centered on staffing shortfalls going into the holiday travel peri-
                                                 od in two critical functions — fleet service employees and flight atten-
                                     dants, particularly at its Philadelphia hub. Plans to offset the staffing shortages
                                     through overtime and increasing the required number of hours worked by flight
                                     attendants did not work. US Airways canceled 405 flights during the holiday
                                     travel period, affecting more than 46,000 passengers and delayed over
                                     3,900 flights affecting over 518,000 passengers. US Airways has subse-
                                     quently made an intensive effort to increase staffing at its Philadelphia bag-
                                     gage operations and is increasing the monthly flying obligations of its flight
                                     attendants by 5 to 10 hours. However, with the airline in bankruptcy,
                                     increasing their flight operations, decreasing pay, and asking flight attendants
                                     to work additional hours, it is unclear whether those actions will prevent a
                                     similar situation from occurring in the future.

30   Semiannual Report to Congress
                   activities


            Processing Petitions To Import Non-Canadian 

                        Gray Market Vehicles

February 28, 2005
   We reported on NHTSA’s processing of petitions to import vehicles (other
than those manufactured for sale in Canada) that were not originally manufac-
tured to comply with U.S. safety standards. We found that NHTSA had expe-
rienced processing delays in calendar years 2001 and 2002 but has shown
marked improvement due to changes in management and processing staff.
However, we also found that no mechanism existed for vehicle owners to
obtain the current status of petitions under review. NHTSA took action to
implement our four procedural recommendations, which will ensure that the
status of pending import eligibility petitions is now available to both NHTSA
management and the customers.

       Florida Freight Forwarding Company Pleads Guilty to 

             Hazardous Materials (HAZMAT) Charges

March 1, 2005
   Laparkan Trading Limited Company (Laparkan), Miami,
Florida, a freight forwarding company, pled guilty in U.S. District
Court in Miami for HAZMAT violations. Larparkan received the
hazardous cargo (e.g., phosphoric acid, hydrochloric acid, and
potassium hydroxide) from Seaboard Marine Ltd. (Seaboard) in
55-gallon drums and boxes for inspection, inventorying, and pro-
duction of a required HAZMAT documentation. Laparkan
employees discovered that cargo was leaking, but failed to notify
proper authorities as required by Federal law. Instead, Laparkan
contacted Seaboard to retrieve the entire load - which was later
found abandoned and leaking in a Hialeah, Florida warehouse dis-
trict. Although no persons were physically harmed in this case,
exposure to the noxious acid fumes may cause breathing problems
and some of the materials are flammable. In September 2004, Seaboard pled
guilty to illegally transporting hazardous cargo, and sentencing for both
Seaboard and Laparkan is pending. The investigation is being conducted joint-
ly with the Florida Department of Environmental Protection and the Miami-
Dade Police Department, with assistance from the FMCSA.


                                                                                activities   31
                                               Ohio DOT Inspector Ordered to Pay $234,000 in
                                                           Bridge-Painting Scam
                                     March 3, 2005
                                                  Elwood Clark, a former Ohio DOT (O-DOT) bridge inspector,
                                               was sentenced in U.S. District Court in Akron, Ohio to 28 months
                                               in prison and ordered to pay $234,000 restitution for making false
                                               statements regarding the quantity and quality of bridge painting
                                               work performed on a Federal-aid project by co-defendant Argo
                                               Contracting Co. (Argo). Clark was convicted in December 2004 on
                                               two counts of providing false reports on a transportation project. He
                                               is the sixth O-DOT inspector charged in a bribery and corruption
                                               scam involving multiple bridge painting contractors. Argo has been
                                               debarred by FHWA, and four other O-DOT inspectors have been
                                               sentenced to date. The investigation is being conducted jointly with
                                               the FBI.

                                      Former Transit Contractor Sentenced to Jail and Ordered to Pay
                                                  Over $780,000 from an FTA Grantee
                                     March 3, 2005
                                        Pamela Sue Leichty, a senior financial specialist for the Davenport-Rock
                                     Island County Quad-City Garage Policy Group (QCGPG), a contractor man-
                                     aging the maintenance garage for Davenport, Iowa’s ‘CitiBus’ and Rock
                                     Island, Illinois’ ‘MetroLINK’ bus services, was sentenced in U.S. District
                                     Court in Peoria, Illinois to 42 months in prison and $782,640 restitution for
                                     embezzling public funds and making a false statement. From March 2001 to
                                     November 2003, Leichty manipulated QCGPG’s accounting software to print
                                     unauthorized checks payable to herself. The scheme involved printing checks
                                     to vendors for identical sums, recording these in QCGPG’s books, and then
                                     destroying those vendor checks. Leichty’s employment with QCGPG was ter-
                                     minated in December 2003. This case was investigated jointly with the FBI.

                                       Global Consulting Firm Agrees to $6.5 Million Civil Settlement
                                                            in False Claims Case
                                     March 24, 2005
                                        The United States Attorney, District of Massachusetts announced that
                                     Arthur D. Little, Inc. (ADL), now known in Chapter 11 bankruptcy proceed-
                                     ings as Dehon, Inc., entered into a $6.5 million settlement agreement with the
                                     U.S. Attorney’s Office in Boston to resolve civil claims. ADL fraudulently billed
                                     35 federal agencies by inflating its indirect costs and overhead charges on gov-



32   Semiannual Report to Congress
                    activities


ernment contracts by an estimated $14 million between 1995 and 2000. DOT
contracts held with ADL were valued at about $11 million. A federal bankrupt-
cy judge approved the $6.5 million settlement agreement on March 15, 2005.
This investigation was conducted jointly with DCIS, the Environmental
Protection Agency — Office of Inspector General, the U.S. Army — Criminal
Investigative Division, and the FBI, with assistance from the Defense Contract
Audit Agency.

        Review of the Office of the Chief Information Officer’s 

                      Fiscal Year 2005 Budget

March 31, 2005
   In response to a request by the Senate Committee on Appropriations, we
issued our final report on the Fiscal Year (FY) 2005 Office of the Chief
Information Officer (OCIO) information technology (IT) budget request for
enhancing security, E-Government services, and IT investment management.
The OCIO is responsible for one of the largest IT investment portfolios among
civilian agencies, with an annual IT budget of about $2.7 billion. We found
that the OCIO needs to improve its budget submission and oversight of con-
tract services. We also found budget problems associated with the planned con-
solidation of common systems across Department agencies. We recommend-
ed that the OCIO: (1) disclose the full range of OCIO responsibilities and
other sources of funding, including the departmental Working Capital Fund, in
future-year budget submissions; (2) complete performance gap analyses for the
proposed consolidation of common systems by June 2005 for the departmen-
tal Investment Review Board’s consideration and keep the House and Senate
Committees on Appropriations informed of the planned actions; (3) develop a
multi-year plan for continued enhancement of IT investment management, IT
security, and E-Government services, strengthen oversight of contractors work,
and better coordinate with departmental offices to avoid duplicate funding
requests for performing similar services; and (4) refine the cost saving estimates
(18 percent to 26 percent based on the industry average) for the planned con-
solidation of the Headquarters IT infrastructure, work with the E-payroll exec-
utive steering committee to strengthen oversight of the planned payroll system
conversion, and submit an action plan for increased oversight to the House and
Senate Committees on Appropriations, as directed by the Senate committee.



                                                                                     activities   33
                                            Sharpening the Focus on Contract/
                                                      Grant Fraud



                                     T
                                          he Department of Transportation (DOT) spends more than $54 billion
                                        a year on our nation’s transportation projects and programs that impact
                                        virtually every community in the nation. A core responsibility of the
                                     Inspector General (IG) is to help ensure that the materials and services pur­
                                     chased by DOT are delivered on-budget, on-time, and function as intended
                                     — free of mischarging, bribery, kickbacks, embezzlement, collusion, and
                                     other corruption. The imperative for controlling costs and stemming loss
                                     through fraud, waste, or abuse is even greater in the current fiscal environ­
                                     ment of decreasing highway and aviation trust funds at the same time that
                                     DOT program demands are increasing.
                                       In addressing this challenge, Office of Inspector General (OIG) investi­
                                     gations of contract and grant fraud have increased. Since 2000, investi­
                                     gations into contract and grant fraud have resulted in 261 indictments,
                                     224 convictions, and over $133 million in fines, restitution, and civil
                                     recoveries.
                                       In a particularly egregious recent case of embezzlement, a prominent
                                                                             tenured engineering professor at
                                                                             George    Washington        University
                                                                             (GWU), Nabih E. Bedewi, who
                                                                             administered     Federal     Highway
                                                                             Administration      (FHWA)        and
                                                                             National Highway Traffic Safety
                                                                             Administration cooperative agree­
                                                                             ment funds for the National Crash
                                                                             Analysis Center, embezzled nearly
                                                                             $1 million over a four-year period.
                                                                             The   professor’s   fraud    schemes
                                                                             included paying himself and compa­
                                                                             nies he controlled or operated by
                                                                             submitting bogus invoices contain­
                                                                             ing fictitious and inflated expenses
                                                                             for labor, equipment and consulting
                                     services for the FHWA-funded project. In addition, Bedewi made false rep­
                                     resentations to establish unauthorized stipends to graduate students and
                                     unauthorized scholarships to spouses of GWU employees. At the time of his
                                     arrest in October 2004, Bedewi had recently purchased a $2.29 million man­
                                     sion — complete with seven full baths, three fireplaces, a four-car garage
                                     and multi-terraced driveway. He also drove a Jaguar automobile, had season
                                     tickets to the Washington Redskins, and a Florida condominium. The investi-



34   Semiannual Report to Congress
gation also disclosed inadequate internal controls and lack of fundamental
oversight on the part of both GWU and FHWA. More specifically, it found
that FHWA’s Agreement Officer’s Technical Representative socialized with
the professor while at the same time exercising poor oversight, such as not
scrutinizing invoices or confirming that work had actually been performed.
Bedewi subsequently pled guilty and, as part of the plea agreement, will
pay nearly $1 million in fines and restitution. He faces a probable 3 ½ years
in prison when sentenced in June 2005. In a separate civil settlement effec­
tive April 15, 2005, GWU has agreed to either pay or credit the Government
over $1.8 million, with $1,165,794 credited under an active cooperative
agreement and the remaining $659,206 paid directly to the United States
Treasury. Both GWU and FHWA have taken action to institute greater inter­
nal controls and oversight.


Other examples of significant OIG investigations of contract
and grant fraud during the current reporting period include:

■ A Wisconsin concrete construction company and owners were ordered to
pay $1.1 million for bid-rigging on highway projects.


■ A former New York construction contractor program manager pled guilty
and agreed to pay $300,000 for false statements made in connection with a
scheme to bilk the company (which held a contract with an FTA grantee, the
New York City Transit Authority) through establishing a sham subcontractor
and invoicing for work not performed.


■ The owner of a Connecticut design engineering company was sentenced
to almost 3 years in prison for major fraud on bridge projects in several
states.


■ A contractor pled guilty to embezzling over $780,000 from an FTA
grantee.




                                                                                Activities   35
36   Semiannual Report to Congress
          other

     accomplishments


T
         his section extends beyond the legal reporting requirements of the
         Inspector General Act to highlight other accomplishments and con-
         tributions by Office of Inspector General (OIG) staff. These accom-
plishments are part of our statutory responsibilities to review existing and pro-
posed legislation and regulations; respond to congressional and departmental
requests for information; and review policies for ways to promote effectiveness
and efficiency and detect and prevent fraud, waste, and abuse.

■ VOLPE
 In October 2004, the Cambridge Investigations Office received a referral
from the Volpe Information Technology Security Officer. The referral
alleged that a female Volpe Center employee had received four e-mails from
an anonymous source that were sexual in nature and contained veiled threats.
The fourth e-mail made reference to the employee being seen at the Volpe
day care center. The Volpe employee was concerned about the safety of her
child and herself. The OIG’s investigation traced one of the e-mails to a
computer located within the Volpe day care center. Further investigation
identified a male employee of the Volpe day care center as the individual
responsible for sending the e-mails. When interviewed by the OIG, he
admitted to sending the e-mails. The day care center employees are con-
tractors to Volpe. The results of the OIG’s investigation were provided to
Volpe management and the President of the day care center’s Board of
Directors, who subsequently requested the employee’s resignation. The
employee resigned in November 2004.

■ CENTRAL ARTERY
On December 2, 2004, we provided a written statement to the Joint
Committee on Transportation, 183rd General Court, Commonwealth of
Massachusetts. Our statement, "Water Leaks Within the I-93 Tunnels of the
Central Artery Project," reported that the Project’s I-93 tunnel had approx-
imately 700 leaks. We recommended the creation of a small, independent,
bipartisan commission of limited duration to determine the responsible par-
ties and ensure that they, not the taxpayers, bear the costs of the leaks. In
addition, the commission could oversee or help to ensure that the
Massachusetts Turnpike Authority’s efforts to identify and appropriately fix
the leaks proceeded with due diligence. In response to our recommendation,


                                                                                    other accomplishments   37
                                     the Massachusetts Governor and Legislature proposed that an independent
                                     commission be formed to identify responsibility for the leaks in the I-93 tun-
                                     nels and to oversee the associated cost recovery efforts. Another proposal
                                     was submitted for the State Attorney General to lead a cost recovery team in
                                     investigating the I-93 tunnel leaks, determining the responsible parties, and
                                     ensuring that they, not the taxpayers, bear the repair costs. Further, the
                                     Authority retained an independent auditor (Deloitte and Touche) to deter-
                                     mine, among other things, the costs associated with the leaks, their impact
                                     on the Project’s Finance Plan, and the responsible parties to ultimately pay
                                     for the leaks.

                                     ■ ASSISTED BUDGET EXAMINERS
                                     We provided information to the Office of Management and Budget about our
                                     major highway and transit infrastructure project monitoring effort to (1) pro-
                                     mote a better understanding of major project risks and actions needed to miti-
                                     gate them and (2) identify project management best practices. The information
                                     focused on issues relating to selected project baseline and current cost estimates,
                                     funding sources and amounts, original and revised completion dates, and other
                                     important considerations such as legal and stakeholder interests. We also dis-
                                     cussed identifying systemic oversight issues and opportunities to strengthen
                                     Federal oversight of major projects.

                                     ■ CONTRACTOR WITHDRAWS FROM PROJECTS VALUED AT OVER
                                       $20 MILLION
                                     As a part of an ongoing investigation conducted by the Department of
                                     Transportation (DOT) OIG and the other members of the Long Island
                                     Federal Construction Fraud Task Force, a Federal search warrant for financial
                                     records and books was executed in January at a road milling company based on
                                     claims of over billing. This was about a week after the City of New York award-
                                     ed the company two resurfacing-preparation contracts with a total value of over
                                     $20 million. In early February, and before work had commenced, the compa-
                                     ny withdrew from both resurfacing-preparation contracts, leaving the City free
                                     to use a different contractor.

                                     ■ STRENGTHENED INTERNAL CONTROLS AT GEORGE WASHINGTON
                                       UNIVERSITY (GWU)
                                     During an investigation of embezzlement that occurred on cooperative agree-
                                     ments awarded by FHWA to GWU, immediate corrective action was imple-
                                     mented based on our initial risk assessment. For example, GWU agreed to
                                     immediately add a financial manager to review transactions related to the coop-
                                     erative agreements and improved controls over cash handling. GWU also
                                     agreed to have a private CPA firm review internal controls associated with our


38   Semiannual Report to Congress
identified areas of risk. The parties agreed to ensure that detailed corrective
actions would be in place before partially reinstating GWU to the current
cooperative agreement.

■ IMPROVED FHWA GRANT FINANCIAL MANAGEMENT OVERSIGHT
On February 28, 2005, FHWA announced the Financial Integrity Review and
Evaluation (FIRE) Program as an important step towards enhancing FHWA’s
oversight and stewardship role. In order to ensure that all division offices
completed some portion of the FIRE requirements in FY 2005, we advised
the Administrator and Executive Director to implement several pilot projects,
including financial management process reviews in 10 states, billing reviews
in 25 states, inactive obligation reviews in 10 states, and risk assessments in
10 states. We also recommended pilot projects for assessments of 15 proj-
ects greater than $25 million and reviews of 4 mega projects’ finance plans.
Based on our advice, FHWA implemented a modified FIRE program for
FY 2005 to ensure that FIRE has an immediate impact in FY 2005.

■ STRONGER OVERSIGHT URGED
Our audit of the Puerto Rico Highway and Transportation Authority’s
(PRHTA) management of the Tren Urbano Rail Transit Project identified
project schedule, cost estimate, and outstanding construction quality prob-
lems. We recommended, and the Federal Transit Administrator agreed, to
designate PRHTA as a "high-risk" grantee, under 49 CFR § 18.12. We also
advised the Deputy Federal Highway Administrator to consider increasing the
level of oversight provided to PRHTA, since FHWA provides Federal grants
for many of PRHTA’s highway programs. In response, the Deputy
Administrator said he would send a team of project development specialists to
Puerto Rico to supplement the efforts of division personnel in identifying spe-
cific program changes that PRHTA should make. Based on the results of this
team’s review, FHWA will consider whether or not to extend the "high-risk"
designation to PRHTA’s Federal-aid highway program.

■ HIGHWAY PROJECT FINANCE PLAN REVIEWS
As part of our major highway and transit infrastructure monitoring effort,
we noted that estimated costs had nearly doubled, from $2.6 billion to
$5.1 billion, for the San Francisco-Oakland Bay Bridge East Span Project.
Subsequently, we found that the 2003 Finance Plan Update for this project
had not undergone the type of independent and rigorous review that was
envisioned by FHWA guidance prior to the plan’s acceptance and the obli-
gation of Federal funds to this project. Specifically, FHWA personnel sim-
ply relied on the California Department of Transportation certification that
estimated costs were valid and did not evaluate and ensure the reasonable-


                                                                                  other accomplishments   39
                                     ness of reported cost projections. In response, FHWA took steps to ensure that
                                     its review and acceptance of the 2004 Finance Plan Update complies with its
                                     guidance.

                                     ■ MIDWAY ISLAND
                                     While reviewing the costs of operating an emergency airfield on Midway Island,
                                     we found opportunities to reduce costs which led to savings of about $1.1 mil-
                                     lion. The Department of the Interior’s Fish and Wildlife Service (FWS) is respon-
                                     sible for operating Midway Island, and FAA reimburses FWS for the operation of
                                     the airfield. We found that the contract amount paid to operate the island and
                                     the airfield was based on cost estimates that exceeded the contractor’s actual
                                     effort. FWS agreed and renegotiated the contract with the contractor.


                                     ■ BACKGROUND INVESTIGATIONS
                                        On March 15, 2005, we briefed officials from the Office of the Secretary
                                     (OST) and Volpe regarding issues identified during our review. Although
                                     DOT has made significant progress towards improving its oversight and man-
                                     agement of background investigations for its Government and contractor
                                     employees, improvements are still needed. We found that: (1) DOT lacks com-
                                     plete data on contractor population and associated background investigations,
                                     (2) Operating Administrations need to assume a greater role in overseeing and
                                     managing background investigations, and (3) Volpe faces continued problems
                                     in the management of background investigations. As a result of the review,
                                     OST plans to conduct a training class for personnel security coordinators and
                                     a quality control review at Volpe. Volpe also initiated a detailed examination of
                                     all in-house contractor employees to ensure that they have appropriate and
                                     complete background investigations. In doing so, Volpe identified approxi-
                                     mately 90 contractor employees and 13 day care workers whose fingerprint
                                     checks and associated paperwork had not been submitted to OST. Moreover,
                                     the Volpe Director noted that the Center had taken steps to correct this prob-
                                     lem and instituted systems to prevent this problem in the future.




40   Semiannual Report to Congress
         charts & tables


Summary of Performance
Office of Inspector General
October 1, 2004 – March 31, 2005

Reports issued                               55

Recommendations issued                      188

Total financial recommendations    $ 258,736,023

  — that funds be better used      $ 234,000,000

  — that questioned costs          $ 24,736,023




                                                   c h a r t s   &   ta b l e s   41
                                     INVESTIGATIONS

                                     Judicial and Administrative Actions
                                     October 1, 2004–March 31, 2005
                                     Indictments                                                          146
                                     Employee

                                         Terminations                                                     5
                                         Suspensions                                                      3
                                         Reprimands                                                       3
                                         Resignations/Retirements                                        13
                                         Counseling                                                       5
                                         Debarment/Suspension                                            15
                                         Decertified                                                      1
                                         Federal funding terminated/reduced                               2
                                         Certificate/License Suspended/Revoked/Terminated                15
                                     Convictions                                                        103
                                     Years Sentenced                                                    147
                                     Years Probation                                                    119
                                     Years Supervised Release                                           142
                                     Hours of Community Service                                        1650



                                                                       Financial Impact
                                     Fines                                                        $2,097,044
                                     Restitution/Civil Judgments                                 $20,577,841
                                     Federal Recoveries                                          $13,361,938
                                     Administrative Recoveries                                    $3,221,079
                                     State Recoveries                                               $411,261


                                     TOTAL                                                      $39,669,163




                                     D
                                              uring the 6 month period covered by this report, 138 cases were
                                              opened and 220 were closed, leaving a pending caseload of 577.
                                              In addition, 301 individuals/companies were referred for prose-
                                     cution, 210 were accepted for prosecution, and 92 were declined. As of
                                     March 31, 2005, 49 cases were pending before prosecutors.




42   Semiannual Report to Congress
Profile of All Pending Investigations
As of March 31, 2005
                                                                                               Types of Cases
                                                      Number Contract/Grant Employee                 Aviation    Motor Carrier
                                                      of Cases   Fraud       Integrity                Safety        Safety        Hazmat         Other
Operating Administration
Bureau of Transportation Statistics                       1               1              0              0               0              0           0
Federal Aviation Administration                          213             33             69              98              0              6           7

Federal Highway Administration                           145             132             6              0               0              0           7
Federal Railroad Administration                          14               5              3              0               0              4           2
Federal Transit Administration                           38              34              2              0               0              1           1
Maritime Administration                                   5               4              1              0               0              0           0

Federal Motor Carrier Safety Administration              99               1              5              0              64             21           8
Office of the Secretary                                  18               4             10              0               0              1           3
Pipeline and Hazardous Materials Safety Administration 28                 0              0              0               0             28           0

Research and Special Programs Administration              3               1              2              0               0              0           0
National Transportation Safety Board                      2               0              2              0               0              0           0
National Highway Traffic Safety Administration           11               4              3              0               0              0           4

Totals                                                  577             219            103              98             64             61          32
Percent of Total                                       100%             38%            18%            17%              11%            11%         6%



Investigations Recommendations
October 1, 2004–March 31, 2005
There were five recommendations during this reporting period stemming from OIG Investigations:
    Associated                                                     Recommendation(s)                                         Status
     Operating
   Administration

         FAA                                  Ensure Dallas/Forth Worth (DFW) Terminal Radar Approach            Open — FAA put DFW on a 2-year no-
                                              Control complies with national policy on operational errors;       notice review status and placed involved
                                              initiate close oversight and appropriate administrative actions.   controllers and supervisory personnel on
                                                                                                                 performance improvements plans.
         FRA                                  Consider a requirement that ethics advice to agency heads be       Closed — Office of General Counsel to
                                              documented and coordinated with General Counsel.                   implement recommendation.
         FRA                                  FRA to create an inspection program addressing safety problems     Open — Awaiting implementation infor-
                                              based on trend/data analysis and submit a comprehensive plan       mation from FRA.
                                              to the Secretary within 90 days.

         FAA                                  FAA to consider appropriate disciplinary action concerning         Closed — FAA issued a letter of repri-
                                              inappropriate relationship of FAA executive and subordinate.       mand to executive and removed subor-
                                                                                                                 dinate from chain of command.
         FAA                                  Appropriate disciplinary action by FAA in case involving violations Closed — Employee retired from Federal
                                              of time and attendance regulations.                                 service.


                                                                                                         c h a r t s    &    ta b l e s                43
Application of Investigative Project Hours by Operating Administration
October 1, 2004–March 31, 2005
                                                 PHMSA 3%
                                                                                 FRA 4%
                                                                                 Other 4%

                                                                                 OST 5%
                                                  FAA 30%


                                                                                 FTA 6%




                                                 FHWA 26%                        FMCSA 23%




Application of Investigative Project Hours by Priority Area
October 1, 2004 – March 31, 2005

                                                                         Other 7%


                                                                         Hazmat 10%




                     Contract/Grant Fraud 38%                            Aviation Safety 15%




                                                                         Employee Integrity 15%
            Motor Carrier Safety and Fraud 15%




44          Semiannual Report to Congress
AUDITS
Completed OIG Reports
October 1, 2004 – March 31, 2005
(Dollars in Thousands) Estimated Amounts*
                                                              Number of                 Number of                   Questioned            Funds to Be Put
                                                               Reports               Recommendations                  Costs**              to Better Use
Type of Review
Internal Audits
— Program/Functional                                                 14                         76                           0                  $234,000
— Chief Financial Officer Financial Statements                        7                         51                           0                           0
Other OIG Reports***                                                  2                          0                           0                           0
Total Internal Audits and Reports                                   23                        127                           0                  $234,000
Grant Audits
— Audits of Grantee Under Single Audit Act                           32                         61                  $24,736                            $0

Totals                                                              55                        188                   $24,736                    $234,000
* The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
** There were no recommendations for unsupported costs during the reporting period.
*** These reports do not meet Government Auditing Standards.
Department of Transportation programs and operations are primarily carried out by the Department's own personnel and recipients of Federal grants. Audits by
DOT's Office of Inspector General, as a result, generally fall into three categories: internal audits of Departmental programs and operations, audits of grant recipi-
ents, and other OIG reports. The table above shows OIG's results in the three categories for the 6 months covered by this report.




OIG Reports with Recommendations That Questioned Costs
October 1, 2004 – March 31, 2005
(Dollars in thousands)
                                                                          Number of                     Number of                       Questioned
                                                                           Reports                   Recommendations                      Costs
Reports
A	 For which no management decision had been made
   by the start of the reporting period                                         24                             31                        $    58,912
B Which were issued during the reporting period	                                23                             31                        $    24,736

Total A+B	                                                                     47                              62                        $ 83,648
C	 For which a management decision was made
   during the reporting period                                                  22                             27                        $    53,947
   — dollar value of disallowed costs**	                                        17                             20                        $    49,226
   — dollar value of costs not disallowed**	                                    10                             11                        $     5,202

D	 For which no management decision had been made
   by the end of the reporting period                                           26                             35                        $    29,702

*There were no recommendations for unsupported costs during the reporting period.
**Includes reports and recommendations where costs were both allowed and disallowed.



                                                                                                              c h a r t s         &     ta b l e s                       45
OIG Reports with Recommendations That Funds Be Put to Better Use

October 1, 2004 – March 31, 2005
(Dollars in thousands)
                                                            Number of               Number of      Funds to Be Put
                                                             Reports             Recommendations    to Better Use
Reports
A For which no management decision had been made
  by the start of the reporting period                           9                         11       $   1,272,880
B Which were issued during the reporting period                  2                          3       $    234,000

Total A+B                                                       11                         14       $ 1,506,880

C For which a management decision was made
  during the reporting period                                    6                          7       $    537,070
     (i) dollar value of recommendations
     that were agreed to by management*                          6                          7       $   2,242,566
     (ii) dollar value of recommendations
     that were not agreed to by management*                      1                          1       $          5
D For which no management decision had been
  made by the end of the reporting period                        5                          7       $    969,810

*Includes reports and recommendations where costs were both allowed and disallowed.




OIG Reports Recommending Changes for Safety, Economy or Efficiency
October 1, 2004 – March 31, 2005

                                                       Number of              Number of
                                                        Reports           Recommendations
Reports
A For which no management decision had been
  made by the start of the reporting period                33                         98
B Which were issued during the reporting period            28                     154

Total A+B                                                 61                     252

C For which a management decision was
  made during the reporting period*                        32                     146
D For which no management decision had been
  made by the end of the reporting period*                 32                     106



*Includes reports where management both made and did not make a decision on recommendations.




46                    Semiannual Report to Congress
Management Decisions Regarding OIG Recommendations
October 1, 2004 – March 31, 2005
(Dollars in thousands)
                                                         Number of                Number of                      Questioned                Funds to Be Put
                                                          Reports              Recommendations                     Costs*                   to Better Use
Description
Unresolved as of 10/01/04                                      52                        140                           $58,912                  $1,272,880
Audits with Findings During Current Period                     46                        188                           $24,736                    $234,000
Total to Be Resolved                                          98                        328                       $83,648                    $1,506,880
Management Decisions:
— Audits Prior Period‡                                         30                         62                           $52,580                    $502,070
— Audits Current Period‡                                       22                        118                            $1,367                     $35,000
Total Resolved                                                52                        180                       $53,947                       $537,070
Aging of Unresolved Audits:**
— Less than 6 mos. old                                         28                         70                           $23,369                    $199,000
— 6 mos.–1 year                                                 8                         17                            $5,596                      $2,310
— 1 year–18 mos.                                                4                         33                             $356                     $547,500
— 18 mos.–2 years                                               7                         16                             $367                     $221,000
— Over 2 years old                                              4                         12                              $14                            $0
Unresolved as of 03/31/05                                     51                        148                       $29,702                       $969,810

* There were no recommendations for unsupported costs during this reporting period.
‡ Includes reports and recommendations where costs were both allowed and disallowed.
** Considered unresolved if management decisions have not been made on all report recommendations.




Office of Inspector General Published Reports
October 1, 2004 – March 31, 2005
    Report               Date                                          Title                                                      Focus of Report/
                                                                                                                                 Recommendations
FEDERAL AVIATION ADMINISTRATION
Internal Audits: Program/Functional–5 reports
FI-2005-003           11/05/04         Security and Controls over Technical Center Computer Systems (report contains     Second in a series of reports concerning en
                                       Sensitive Security Information as defined by 49 CFR Part 1520; not available      route air traffic control systems security
                                       for public inspection or copying)
FI-2005-010           11/17/04         2003 Status Assessment of Cost Accounting System and Practices                    Complete the cost accounting system and
                                                                                                                         implement a labor distribution system
SC-2005-015           11/19/04         New Approaches Needed in Managing FAA's Hazardous Materials Program               HAZMAT program better run than former
                                                                                                                         security operations; improvements still needed
AV-2005-016           11/23/04         Terminal Modernization: FAA Needs to Address its Small, Medium, and               Put $199,000,000 to better use
                                       Large Sites Based on Cost, Time, and Capability
FI-2005-044           01/31/05         Inactive Obligations                                                              Put $35,000,000 to better use

Internal Audits: Chief Financial Officer Financial Statement–1 report
QC-2005-006           11/10/04         Quality Control Review of Audited Financial Statements for Fiscal                 Unqualified opinion on financial statements
                                       Years 2004 and 2003



                                                                                                           c h a r t s       &     ta b l e s                    47
Office of Inspector General Published Reports (continued)
     Report        Date                                           Title                                       Focus of Report/
                                                                                                             Recommendations
Grant Audits: Audits of Grantee Under Single Audit Act–11 reports
QC-2005-018      12/14/04        Natrona County International Airport, WY                            $12,463 questioned
QC-2005-019      12/14/04        City of Fort Worth, TX                                              $1,684,845 questioned
QC-2005-026      12/20/04        Guam International Airport Authority                                $3,201,159 questioned
QC-2005-029      12/21/04        Northwest Arkansas Regional Authority, AR                           $238,427 questioned
QC-2005-033      01/04/05        Put-In-Bay Township Port Authority, OH                              $146,153 questioned
QC-2005-034      01/04/05        County of Monroe, NY                                                Improve grantee oversight
QC-2005-035      01/04/05        Gulfport-Biloxi Regional Airport Authority, MS                      $58,923 questioned
QC-2005-038      01/04/05        Dallas/Fort Worth International Airport, TX                         $121,712 questioned
QC-2005-043      01/14/05        Guam International Airport Authority                                $2,857,529 questioned
QC-2005-048      02/15/05        City of Guymon, OK                                                  $25,506 questioned
QC-2005-049      02/15/05        Texarkana Airport Authority, TX                                     $10,666 questioned

FEDERAL HIGHWAY ADMINISTRATION
Internal Audits: Program/Functional—2 reports
MH-2005-012      11/19/04        Managing Risk in the Federal-Aid Highway Program                    Assessments provide limited use in
                                                                                                     evaluating program risks
MH-2005-046      02/15/05        FHWA Needs to Capture Basic Aggregate Cost and Schedule Data to     Expand plans to aggregate project costs;
                                 Improve its Oversight of Federal-aid Funds (also listed under       collect schedule data needed to improve
                                 Office of the Secretary)                                            oversight

Internal Audits: Chief Financial Officer Financial Statement–1 report
QC-2005-007      11/12/04        Quality Control Review of Audited Financial Statements for Fiscal   Unqualified opinion on financial statements
                                 Years 2004 and 2003, Highway Trust Fund

Grant Audits: Audits of Grantee Under Single Audit Act—8 reports
QC-2005-011      11/18/04        State of New York                                                   Improve grantee oversight
QC-2005-020      12/14/04        Government of the United States Virgin Islands                      $1,721,936 questioned
QC-2005-021      12/20/04        City of Baton Rouge and Parish of East Baton Rouge, LA              Improve grantee oversight
QC-2005-022      12/20/04        State of Alabama                                                    $96,000 questioned
QC-2005-023      12/20/04        New Mexico Department of Transportation                             $510,451 questioned
QC-2005-024      12/20/04        State of Hawaii, Department of Transportation-Highways Division     Improve grantee oversight
QC-2005-040      01/14/05        New York State Thruway Authority                                    $34,958 questioned
QC-2005-047      02/15/05        Government of Guam                                                  $102,231 questioned

FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION
Internal Audits: Program/Functional—1 report
MH-2005-032      01/03/05        Follow-up Audit of the Implementation of the North American Free    On-site safety reviews by Mexico needed;
                                 Trade Agreement's (NAFTA) Cross Border Trucking Provisions          further negotiations required before
                                                                                                     opening the border
FEDERAL TRANSIT ADMINISTRATION
Grant Audits: Audits of Grantee Under Single Audit Act—11 reports
QC-2005-002      10/19/04        City of Mobile, AL                                                  $362,351 questioned
QC-2005-025      12/20/04        Milford Transit District, CT                                        $33,722 questioned
QC-2005-027      12/21/04        Port Authority of Allegheny County, PA                              Improve grantee oversight
QC-2005-030      12/21/04        Allen County Regional Transit Authority, OH                         $71,328 questioned
QC-2005-036      01/04/05        Southeastern Pennsylvania Transportation Authority, PA              Improve grantee oversight
QC-2005-037      01/04/05        Regional Transit Authority, New Orleans, LA                         Improve grantee oversight
QC-2005-039      01/04/05        Puerto Rico Highway Transportation Authority                        Improve grantee oversight
QC-2005-041      01/14/05        Massachusetts Bay Transportation Authority, MA                      $410,191 questioned
QC-2005-042      01/14/05        City of Mount Vernon, Skagit County, WA                             $306,236 questioned


48               Semiannual Report to Congress
   Report          Date                                        Title                                                  Focus of Report/
                                                                                                                     Recommendations
QC-2005-053      03/15/05     Greater Cleveland Regional Transit Authority, OH                              Improve grantee oversight
QC-2005-054      03/23/05     Washington Metropolitan Transit Authority, DC                                 $8,068,870 questioned

NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Internal Audits: Program/Functional—2 reports
FI-2005-045      01/31/05     FY 2004 Accounting for Drug Control Funds                                     Conforms with the Office of National Drug
                              Control Policy Circular
MH-2005-052      02/28/05     Processing Petitions to Import Non-Canadian Gray Market Vehicles              Improvements noted due to changes in
                                                                                                            staff and processes
Grant Audits: Audits of Grantee Under Single Audit Act—2 reports
QC-2005-028      12/21/04     State of New Jersey                                                           $1,909,112 questioned
QC-2005-050      02/15/05     Michigan Department of State Police                                           $2,751,254 questioned

NATIONAL RAILROAD PASSENGER CORPORATION
Other Internal OIG Reports–1 report
CR-2005-013      11/18/04     Assessment of Amtrak's 2003 and 2004 Financial Performance                    Reduce the need for operating subsidies;
                              and Requirements                                                              set better priorities for capital expenditures

NATIONAL TRANSPORTATION SAFETY BOARD
Internal Audits: Chief Financial Officer Financial Statement–1 report
QC-2005-005      11/10/04     Quality Control Review of National Transportation Safety Board Fiscal         Unqualified opinion on financial statements
                              Year 2004 Financial Statements

OFFICE OF THE SECRETARY OF TRANSPORTATION
Internal Audits: Program/Functional—5 reports
FI-2005-001      10/01/04     Information Security Program                                                  Better coordination needed for IT budget
                                                                                                            requests
PT-2005-008      11/15/04     Top Management Challenges                                                     Ten challenges and three emerging issues
                                                                                                            identified
SC-2005-031      12/21/04     Follow-up Audit of DOT's Rulemaking Process and Tracking System               Progress made in timely issuance of
                                                                                                            rulemakings
MH-2005-046      02/15/05     FHWA Needs to Capture Basic Aggregate Cost and Schedule Data to               Expand plans to aggregate project costs;
                              Improve its Oversight of Federal-aid Funds (also listed under Federal         collect schedule data needed to improve
                              Highway Administration)                                                       oversight
FI-2005-055      03/31/05     Office of the Chief Information Officer's Budget                              Improve budget submission practices and
                                                                                                            contract services oversight
Internal Audits: Chief Financial Officer Financial Statement–3 reports
FI-2005-009      11/15/04     Consolidated Financial Statements for Fiscal Years 2004 and 2003              Unqualified opinion on financial statements
FI-2005-014      11/18/04     Special-Purpose (Closing Package) Financial Statement and IG Agreed-Upon      Financial position of DOT fairly presented
                              Procedures for Intragovernmental Activity and Balances                        and in conformity with accounting principles
FI-2005-017      12/02/04     Independent Accountant's Agreed-Upon Procedures for Intragovernmental         Effective processes needed to reconcile
                              Activity and Balances                                                         intragovernmental activity and balances

Other Internal OIG Reports–1 report
SC-2005-051      02/28/05     Review of December 2004 Holiday Air Travel Disruptions                        Severe weather, computer system failure,
                                                                                                            and staffing shortfalls disrupt holiday travel
SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION
Internal Audits: Chief Financial Officer Financial Statement–1 report
QC-2005-004      11/09/04     Quality Control Review of Audited Financial Statements for Fiscal             Unqualified opinion on financial statements
                              Years 2004 and 2003


                                                                                                  c h a r t s    &    ta b l e s                      49
Status of Unresolved Recommendations Over Six Months Old

                                      Cited in Semiannual Report for April 1, 2000–September 30, 2000

Contract Towers: Observations on FAA's Study of the Program       AV-2000-079     04/12/00   Awaiting additional Expanding information from FAA

                                       Cited in Semiannual Report for October 1, 2001–March 31, 2002

Downtown Waycross Development Authority, GA                       QC-2002-027     10/31/01   FHWA working with Grantee to resolve open issues

FAA's Acquisition of Aviation Weather Systems                     AV-2002-084     02/28/02   Working with FAA to resolve open issues

                                       Cited in Semiannual Report for October 1, 2002–March 31, 2003

Innovative Pavement Research Foundation                           QC-2003-035     03/31/03   FHWA working with Grantee to resolve open issues

                                      Cited in Semiannual Report for April 1, 2003–September 30, 2003

Status Report on FAA's Operational Evolution Plan                 AV-2003-048     07/23/03   Working with FAA to resolve open issues

City and County of San Francisco, CA                              QC-2003-056     09/03/03   FTA working with Grantee to resolve open issues

FAA Needs to Reevaluate STARS Costs and Consider Other Alternatives AV-2003-058   09/09/03   Working with FAA to resolve open issues

State of West Virginia                                            QC-2003-079     09/23/03   FHWA working with Grantee to resolve open issues

State of Tennessee                                                QC-2003-084     09/23/03   FHWA working with Grantee to resolve open issues

State of California                                               QC-2003-085     09/23/03   FHWA working with Grantee to resolve open issues

Allegheny County Airport Authority, PA                            QC-2003-091     09/30/03   FAA working with Grantee to resolve open issues

                                       Cited in Semiannual Report for October 1, 2003–March 31, 2004

Chambersburg Transit Authority                                    QC-2004-019     01/20/04   FTA working with Grantee to resolve open issues

Monitoring of Highway Trust Fund FY 2003 Financial Statements     QC-2004-029     01/23/04   Working with FHWA to resolve open issues

Revenue Diversions at San Francisco International Airport         SC-2004-038     03/31/04   Working with FAA to resolve open issues

Inactive Obligations, FHWA                                        FI-2004-039     03/31/04   Working with FHWA to resolve open issues

Erie Municipal Airport Authority                                  QC-2004-045     04/08/04   FAA working with Grantee to resolve open issues

Michigan Department of Transportation                             QC-2004-051     04/08/04   FHWA working with Grantee to resolve open issues

Indianapolis Public Transportation Corporation                    QC-2004-052     04/08/04   FTA working with Grantee to resolve open issues

Government of Guam                                                QC-2004-056     04/08/04   FHWA working with Grantee to resolve open issues



50                    Semiannual Report to Congress
Highway-Rail Grade Crossing Safety Program                            MH-2004-065        06/16/04      Working with FHWA,FRA, and FTA to resolve open issues

State of North Carolina                                               QC-2004-070        07/20/04      FHWA working with Grantee to resolve open issues

Monitoring Audit of Volpe Cost Accounting System                       FI-2004-076       08/04/04      Working with RITA to resolve open issues

Assessment of the Volpe National Transportation Center                SC-2004-077        08/04/04      Working with RITA to resolve open issues




  Application of Audit Project Hours by Operating Administration
  October 1, 2004–March 31, 2005
                                                                   RSPA 1%                                                                             NTSB 1%
                                                                                                                                                       FMCSA 2%
  Note: Resources shown for OST include time spent per-
                                                                                                                                                       FTA 3%
  forming audits of the DOT Consolidated Financial
  Statements (which includes all Operating                                                                                                             NHTSA 3%
  Administrations), Security of Public Transit and                 FAA 35%                                                                             FRA 5%
  Passenger Rail Systems, and Holiday Weekend Airline
  Disruptions.

  Resources shown as "Other" were expended on the
  Maritime Administration, the Surface Transportation
  Board, and the St. Lawrence Seaway Development
  Corporation and totaled less than 1 percent each.                                                                                                    OST 24%




                                                                 FHWA 25%


  Note: May not equal 100 percent due to rounding.




Required Statements:
  The Inspector General Act requires the Semiannual Report to carry explanations, if during the reporting period, departmental management significantly revised
management decisions stemming from an audit. OIG follows up on audits reported in earlier semiannual reports. During this reporting period, departmental manage-
ment did not report any significant revisions to management decisions.

   The Act also requires descriptions of any significant decisions that departmental management made regarding an audit with which OIG disagrees. When the
reporting period closed, there were no such significant decisions with which OIG disagreed.




                                                                                                         c h a r t s        &    ta b l e s                  51
52   Semiannual Report to Congress
               mission,

            organization,

             & contacts


T
         he Office of Inspector General for the Department of Transportation
         was created by Congress through the Inspector General Act of 1978
         (Public Law 95–452). The act sets several goals for OIG:

■	 To conduct or supervise objective audits and investigations of DOT’s pro-
   grams and operations;

■	 To promote economy, effectiveness, and efficiency within DOT;

■	 To prevent and detect fraud, waste, and abuse in the Department’s pro-
   grams;

■	 To review existing and proposed laws or regulations affecting the
   Department and make recommendations about them;

■	 To keep the Secretary of Transportation and Congress fully informed about
   problems in departmental pro-
   grams and operations.

   OIG is divided into two major            OIG FY 2005 Program-Level Resources
units and five support units. The           Total: $65,356,000
major units are the Office of the
                                              Advisory and Assistance Contracts                                               Other $3,168,000
Principal Assistant Inspector General
                                                                   $3,860,000
for Auditing and Evaluation and the
Office of Assistant Inspector General
                                                      Rent to GSA $3,751,000
for Investigations. Each has head-
quarters staff and field staff. The sup-
                                                           Travel $2,522,000
port units are the Office of Legal,
Legislative, and External Affairs; the
                                             Working Capital Fund $2,218,000
Office of Technical Resource
Management; the Office of Human
Resources; the Office of Financial,
Administrative, and Information            Personnel Compensation and Benefits
                                                                $49,837,000
Management; and the Office of
Quality Assurance Reviews/Internal
Affairs.



                                                                                  m i s s i o n , o r g a n i z a t i o n , & c o n ta c t s     53
  54
                                                                                                 Inspector General




                                                                                             Deputy Inspector General




Semiannual Report to Congress
                                                           Assistant IG for
                                Assistant IG for                                              Principal Assistant IG for            Quality Assurance Reviews & Internal Affairs
                                                         Legal, Legislative, &
                                 Investigations                                                Auditing & Evaluation
                                                           External Affairs                                                              Technical Resource Management
                                                                                                                                                 Human Resources
                                                                                                                                            Financial, Administrative, &
                                Deputy AIG for
                                Investigations                                                                                               Information Management




                                                    Assistant IG for                 Assistant IG for            Assistant IG for         Assistant IG for
                                                   Aviation & Special            Financial & Information       Surface & Maritime      Competition & Economic
                                                    Program Audits                  Technology Audits               Programs                  Analysis




                                                     Deputy AIG for               Deputy AIG for                 Deputy AIG for
                                                   Aviation & Special        Information Technology            Surface & Maritime
                                                    Program Audits             & Computer Security                  Programs
contacts

Inspector General
Kenneth M. Mead . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1959

Deputy Inspector General
Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6767

Assistant Inspector General for Investigations
Charles H. Lee, Jr. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1967

Deputy Assistant Inspector General for Investigations
Rick Beitel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1972

Assistant Inspector General for Legal, Legislative, and External Affairs
Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–8751

Assistant Inspector General for Aviation and Special Program Audits
David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0500

Deputy Assistant Inspector General for Aviation and Special Program Audits
Robin K. Hunt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 744–0420

Assistant Inspector General for Financial and Information Technology Audits
Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0687

Deputy Assistant Inspector General for Information Technology and Computer Security
Rebecca C. Leng . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1488

Deputy Assistant Inspector General for Surface and Maritime Programs
Kurt Hyde . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6238

Assistant Inspector General for Competition and Economic Analysis
Mark R. Dayton . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–9970

Chief Counsel
Thomas Lehrich . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–2923

Communications Director
David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6312

Director for Audit Planning, Training, and Technical Support
Michelle C. Hill . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0477

Chief Technology Officer
James Heminger . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1498

Director of Human Resources                                                                                                        Hotline to report fraud, waste, and abuse:
Vivian Jarcho . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1440
                                                                                                                                        phone:    1–800–424–9071
Director of Financial, Administrative, and Information Management                                                                          fax:   202–366–7749
Jacquelyn R. Weber . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1495
                                                                                                                                       e–mail:    hotline@oig.dot.gov
Director of Quality Assurance Reviews and Internal Affairs                                                                         OIG website:   http://www.oig.dot.gov
Richard Kaplan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1504

                                                                                                                 m i s s i o n , o r g a n i z a t i o n , & c o n ta c t s   55
                                                                     abbreviations

AIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Assistant Inspector General            ICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Immigration and Customs Enforcement

AIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Airport Improvement Program                IG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Inspector General

AIR-21 . . . . . . . . . . . . . . . . . .Aviation Investment and Reform Act for the 21st Century                             IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Internal Revenue Service

ARTEMIS . . . . .Advanced Retrieval (Tire, Equipment, Motor Vehicle) Information System                                       IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Information Technology

ATC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Traffic Control      MARAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Maritime Administration

ATOP . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Technology and Oceanic Procedures                            MCSIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Motor Carrier Safety Improvement Act

ATOS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Transportation Oversight System                   NAFTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .North American Free Trade Agreement

BATF . . . . . . . . . . . . . . . . . . . . . .Bureau of Alcohol, Tobacco, Firearms and Explosives                           NAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Airspace System

BTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Transportation Statistics                NDR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Driver Register

CDL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Commercial Driver’s License              NHTSA . . . . . . . . . . . . . . . . . . .National Highway Transportation Safety Administration

CFO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Chief Financial Officer        NTSB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .National Transportation Safety Board

CFR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Code of Federal Regulations              OA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Operating Administration

CID . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Criminal Investigations Division             OCIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Chief Information Officer

CIO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Chief Information Officer          OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Inspector General

CPDLC . . . . . . . . . . . . . . . . . . . . . . . . . . . .Controller-Pilot Data Link Communications                        OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget

DAIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Deputy Assistant Inspector General                  OPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Pipeline Safety

DBE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Disadvantaged Business Enterprise                  OSI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Special Investigations

DCIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Defense Criminal Investigative Services                   OST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of the Secretary of Transportation

DHS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Homeland Security                    PCIE . . . . . . . . . . . . . . . . . . . . . . . . . . . .President’s Council on Integrity and Efficiency

DOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Transportation               PHMSA . . . . . . . . . . . . . . . . . . .Pipeline and Hazardous Material Safety Administration

ERAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .En Route Automation Modernization                     RITA . . . . . . . . . . . . . . . . . . . . . . .Research and Innovative Technology Administration

FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Aviation Administration              RSPA . . . . . . . . . . . . . . . . . . . . . . . . . .Research and Special Programs Administration

FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Bureau of Investigation            SAS-70 . . . . . . . . . . . . . . . . . . . . . . . . . .Statement on Auditing Standards Number 70

FHWA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Highway Administration                  SafeStat . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Status Measurement System

FMCSA . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Motor Carrier Safety Administration                        SLSDC . . . . . . . . . . . . . . . . . . . . . . . .St. Lawrence Seaway Development Corporation

FRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Railroad Administration              SPAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Performance Analysis System

FTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Transit Administration             STARS . . . . . . . . . . . . . . . . . . . . .Standard Terminal Automation Replacement System

FY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Fiscal Year   STB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Surface Transportation Board

GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Accountability Office              TEA-21 . . . . . . . . . . . . . . . . . . . . . . . . .Transportation Equity Act for the 21st Century

GMRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Government Management Reform Act                          TRACON . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Terminal Radar Approach Control

GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration                TREAD . . . . . . .Transportation Recall Enhancement, Accountability, and Documentation

HAZMAT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Hazardous Material              VE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Value Engineering

HTF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Highway Trust Fund




56                                 Semiannual Report to Congress
U.S. Department of Transportation
        Office of Inspector General
         400 Seventh Street, S.W.
        Washington, D.C. 20590
